No. __________

In the Supreme Court of the United States
______________________
MICHAEL PATRICK LATHIGEE,
Petitioner,
v.
BRITISH COLUMBIA SECURITIES COMMISSION
Respondent.
______________________
On Petition for a Writ of Certiorari to the
Supreme Court of Nevada
______________________
PETITION FOR A WRIT OF CERTIORARI
______________________
John W. Muije
JOHN W. MUIJE
& ASSOCIATES
3216 Lone Canyon Court
North Las Vegas, Nevada
89031

Micah S. Echols
Counsel of Record
CLAGGETT & SYKES
LAW FIRM
4101 Meadows Lane,
Suite 100
Las Vegas, Nevada 89107
(702) 655-2346
micah@claggettlaw.com
Counsel for Petitioner

i
QUESTION PRESENTED
Whether the Supreme Court of Nevada’s
opinion enforcing the BCSC’s $21.7 million (CAD)
Canadian “Disgorgement Order” against Lathigee as
a judgment in Nevada conflicts with this Court’s
precedents in Huntington v. Attrill, 146 U.S. 657, 13
S. Ct. 224 (1892); Kokesh v. SEC, 581 U.S. ___, 137 S.
Ct. 1635 (2017); and Liu v. SEC, 591 U.S. ___, 140 S.
Ct. 1936 (2020), such that certiorari should be
granted, because the Disgorgement Order constitutes
a fine or penalty as a matter of law.

ii
PARTIES TO THE PROCEEDINGS
Petitioner,
Michael
Patrick
Lathigee
(“Lathigee”), was the appellant in the Supreme Court
of Nevada and defendant in the Eighth Judicial
District Court, Clark County, Nevada.
Respondent, British Columbia Securities
Commission (“BCSC”), was the respondent in the
Supreme Court of Nevada and the plaintiff in the
Eighth Judicial District Court, Clark County,
Nevada.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme
Lathigee is an individual.

Court

Rule

29.6,

iii
TABLE OF CONTENTS
Questions Presented ................................................... i
Parties to the Proceedings ......................................... ii
Corporate Disclosure Statement ............................... ii
Opinions Below ...........................................................1
Jurisdiction..................................................................1
Statement of the Case .................................................2
A.

Legal Framework Relevant to
Disgorgement Orders ............................2
1. Huntington v. Attrill ...................2
2. Kokesh v. SEC .............................4
3. Liu v. SEC ...................................9

B.

Factual and Procedural History ............9
1. The Administrative Proceedings
Before the BCSC .........................9
2. Proceedings Before the State
District Court ............................11
3. Proceedings Before the Nevada
Supreme Court ..........................12

Reasons for Granting the Petition............................14

iv
A.

The Nevada Supreme Court Opinion
Conflicts With Both Huntington and
Kokesh ..................................................14

B.

The Nevada Supreme Court Opinion
Also Conflicts With the Remedy Allowed
by the Court in Liu ..............................24

Conclusion .................................................................26
Appendix A ................................................................1a
Appendix B ..............................................................17a
Appendix C ..............................................................49a
Appendix D ..............................................................77a
TABLE OF AUTHORITIES
Cases:
The Antelope,
23 U.S. 66, 1825 WL 3130, 10 Wheat. 66 (1825) ...2
Equal Treatment of Asbestos Minority Shareholders
v. Ontario (Securities Commission),
201 SCC 37 (CanLII, 2001) ............................16, 17
Huntington v. Attrill,
146 U.S. 657, 13 S. Ct. 224 (1892)................ passim

v
Kokesh v. SEC,
581 U.S. ___, 137 S. Ct. 1635 (2017) ............ passim
Liu v. SEC,
591 U.S. ___, 140 S. Ct. 1936 (2020) ............ passim
Michaels,
214 BCSECCOM 457 (2014)..................... 15, 20, 25
Oriens Travel & Hotel Management Ltd.,
2014 BCSBCCOM91 .......................................24, 25
Poonian v. British Columbia Securities Commission,
2017 BCCA 207 (B.C. App. 2017) ................. passim
SEC v. Kokesh,
834 F.3d 1158 (10th Cir. 2016) ..................... passim
SEC v. Texas Gulf Sulpher Co.,
312 F. Supp. 77 (S.D.N.Y. 1970).............................5
SPYru Inc.,
2015 BSCECCOM 452 (2015)...............................16
Statutes and Regulations:
28 U.S.C. § 2462 ..........................................................5
28 U.S.C. § 2464 ..........................................................4
28 U.S.C. § 1257(a)......................................................1
British Columbia Securities Act § 57(b) .....................9

vi
British Columbia Securities Act § 161(1)(g) .... passim
Nev. Rev. Stat § 17.330 .............................................11
Nev. Rev. Stat. § 17.700 ............................................12

1
Lathigee respectfully petitions this Court for a
writ of certiorari to review the judgment of the
Supreme Court of Nevada in this matter.
OPINIONS BELOW
The opinion of the Supreme Court of Nevada is
reprinted in the Appendix (“App.”) at 1a-16a and is
reported at 477 P.3d 352. The District Court’s
findings of fact, conclusions of law and judgment is
reprinted at App. 17a-48a. The original Canadian
Disgorgement Order is reprinted at App. 49a-76a.
The Nevada Supreme Court’s unpublished order
denying rehearing is reprinted at App. 77a-78a.
JURISDICTION
The Supreme Court of Nevada issued its
opinion on December 10, 2020. A copy of that opinion
is reprinted at App. 1a-16a.
A timely petition for rehearing was denied on
March 18, 2021, and a copy of the order denying
rehearing is reprinted at App. 77a-78a. This Court’s
March 19, 2020 order extended the deadline to file
petitions for writs of certiorari in all cases due on or
after the date of that order to 150 days from the date
of the lower court judgment, order denying
discretionary review, or order denying a timely
petition for rehearing. The jurisdiction of this Court
is invoked under 28 U.S.C. § 1257(a).

2
STATEMENT OF THE CASE
A. Legal Framework Relevant to Disgorgement
Orders.
1. Huntington v. Attrill. This Court has
historically refused to recognize foreign country
judgments that are penal in nature. The genesis of
American law on the subject arises in 1825 in a
statement by Justice Marshall that “[t]he Courts of no
country execute the penal laws of another. . . .” The
Antelope, 23 U.S. 66, 1825 WL 3130, 10 Wheat. 66,
123 (1825). The meaning of “penal” in this context was
the subject of a later U.S. Supreme Court opinion in
Huntington v. Attrill, 146 U.S. 657, 13 S. Ct. 224
(1892), a case where one private individual
(Huntington) obtained a securities fraud judgment
against another private individual (Attrill), wherein
it was stated,
Penal laws, strictly and properly, are
those imposing punishment for an
offense committed against the state, and
which, by the English and American
constitutions, the executive of the state
has the power to pardon. Statutes giving
a private action against the wrongdoer
are sometimes spoken of as penal in their
nature, but in such cases it has been
pointed out that neither the liability
imposed nor the remedy given is strictly
penal.
146 U.S. at 667, 13 S. Ct. at 227.

3
And later in the same opinion:
The test whether a law is penal, in the
strict and primary sense, is whether the
wrong sought to be redressed is a wrong
to the public or a wrong to the individual,
according to the familiar classification of
Blackstone: ‘Wrongs are divisible into
two sorts or species: private wrongs and
public wrongs. The former are an
infringement or privation of the private
or civil rights belonging to individuals,
considered as individuals, and are
thereupon frequently termed ‘civil
injuries’; the latter are a breach and
violation of public rights and duties,
which affect the whole community,
considered as a community, and are
distinguished by the harsher appellation
of ‘crimes and misdemeanors.’ 3 Bl.
Comm. 2.
146 U.S. at 668-69, 13 S. Ct. at 228 (italics added).
Thus, the rule of Huntington is that U.S. courts
may only enforce judgments that are based on the
purely private rights belonging to individuals and
cannot enforce judgments from a foreign nation that
seek to protect the public interests of that nation. The
latter are simply unenforceable by the U.S. courts and
are not recognized. Huntington remains the seminal
opinion on the subject and was discussed at length

4
and followed as recently as 2017 in Kokesh v. SEC,
581 U.S. ___, 137 S. Ct. 1635 (2017).
2. Kokesh v. SEC. Kokesh involved an SEC
enforcement action for an alleged violation of federal
securities laws, wherein the SEC sought a
disgorgement judgment against the defendant. At
issue in the appeal before this Court was whether
there was a penalty within the five-year limitations
period of 28 U.S.C. § 2464, which provides:
Except as otherwise provided by Act of
Congress, an action, suit or proceeding
for the enforcement of any civil fine,
penalty, or forfeiture, pecuniary or
otherwise, shall not be entertained
unless commenced within five years from
the date when the claim first accrued if,
within the same period, the offender or
the property is found within the United
States in order that proper service may
be made thereon.
The U.S. District Court held that the disgorgement
was not a penalty, and that § 2462 did not apply; the
Tenth Circuit Court of Appeals affirmed that decision.
SEC v. Kokesh, 834 F.3d 1158 (10th Cir. 2016). This
Court reversed. 137 S. Ct. at 1646.
Writing for a unanimous court, Justice
Sotomayor began her opinion with the Court’s
holding:

5
A 5-year statute of limitations applies to
any “action, suit or proceeding for the
enforcement of any civil fine, penalty, or
forfeiture, pecuniary or otherwise.”
28 U.S.C. § 2462. This case presents the
question whether § 2462 applies to
claims for disgorgement imposed as a
sanction for violating a federal securities
law. The Court holds that it does.
Disgorgement
in
the
securitiesenforcement context is a “penalty” within
the meaning of § 2462, and so
disgorgement
actions
must
be
commenced within five years of the date
the claim accrues.
137 S. Ct. at 1639 (emphases added).
Going through the history of the SEC’s
disgorgement powers, Justice Sotomayor noted that
beginning in the 1970’s, the courts began ordering
disgorgement in SEC enforcement proceedings for
two reasons: (1) to deprive defendants of their profits
and thus remove any perceived reward for violating
the securities laws, and (2) to protect the public by
providing a deterrent to future violations. 137 S. Ct.
at 1640 (citing SEC v. Texas Gulf Sulpher Co., 312 F.
Supp. 77, 92 (S.D.N.Y. 1970)).
Justice Sotomayor went on to describe in
considerable detail the definition of “penalty”:
A “penalty” is a “punishment, whether
corporal or pecuniary, imposed and

6
enforced by the State, for a crime or
offen[s]e against its laws.” Huntington v.
Attrill, 146 U.S. 657, 667, 13 S. Ct. 224,
36 L.Ed. 1123 (1892). This definition
gives rise to two principles. First,
whether a sanction represents a penalty
turns in part on “whether the wrong
sought to be redressed is a wrong to the
public, or a wrong to the individual.” Id.,
at 668, 13 S. Ct. 224. Although statutes
creating private causes of action against
wrongdoers may appear—or even be
labeled—penal, in many cases “neither
the liability imposed nor the remedy
given is strictly penal.” Id., at 667, 13 S.
Ct. 224. This is because “[p]enal laws,
strictly and properly, are those imposing
punishment for an offense committed
against the State.” Id. Second, a
pecuniary sanction operates as a penalty
only if it is sought “for the purpose of
punishment, and to deter others from
offending in like manner”—as opposed to
compensating a victim for his loss. Id., at
668, 13 S. Ct. 224.
137 S. Ct. at 1642.
This definition resulted in the conclusion that
disgorgement is a penalty. 137 S. Ct. at 1643. Justice
Sotomayor then identified several factors that
characterized disgorgement as a penalty.

7
First, Justice Sotomayor concluded in Kokesh
that disgorgement is a penalty because it is a public
law that gives rise to disgorgement. 137 S. Ct. at 1643.
“The violation for which the remedy is sought is
committed against the United States rather than an
aggrieved individual—this is why, for example, a
securities-enforcement action may proceed even if
victims do not support or are not parties to the
prosecution.” Id.
Second, Justice Sotomayor determined in
Kokesh that disgorgement is imposed for punitive
purposes, to both deprive defendants of the profits of
their activities and to deter future violations. 137 S.
Ct. at 1643. “Sanctions imposed for the purpose of
deterring infractions of public laws are inherently
punitive because deterrence is not a legitimate
nonpunitive governmental objective.” Id. (internal
quotation marks and citations omitted).
Third, Justice Sotomayor also concluded that
disgorgement is not compensatory since courts “have
required disgorgement regardless of whether the
disgorged funds will be paid to such investors as
restitution.” 137 S. Ct. at 1644 (internal quotation
marks and citations omitted). In the case of the SEC
(as with the BCSC), Justice Sotomayor noted that
while some of the funds may go to investors, other of
the funds may go to the U.S. Treasury, and (as with
the BCSC) there is no statutory law that commands
the distribution of funds to investors. Id. “When an
individual is made to pay a noncompensatory
sanction to the Government as a consequence of a

8
legal violation, the payment operates as a penalty.”
Id. “Disgorgement . . . is intended not only to prevent
a wrongdoer’s unjust enrichment but also to deter
others’ violations of the securities laws.” 137 S. Ct. at
1645.
Justice Sotomayor also rejected the SEC’s
contention that disgorgement is remedial in nature,
since “disgorgement sometimes exceeds the profits
gained as a result of the violation.” 137 S. Ct. at 1644.
Thus, inside traders may be subject to disgorgement
even if they do not profit from their information. Id.
Further, as happened in the case at bar,
“disgorgement is sometimes ordered without
consideration of a defendant’s expenses that reduce
the amount of illegal profit.” Id.
Finally, Justice Sotomayor nixed the SEC’s
“mixed motives” argument:
True, disgorgement serves compensatory
goals in some cases; however, we have
emphasized the fact that sanctions
frequently serve more than one purpose.
. . A civil sanction that cannot fairly be
said solely to serve a remedial purpose,
but rather can only be explained as also
serving either retributive or deterrent
purposes, is punishment, as we have
come to understand the term. . . Because
disgorgement
orders
“go
beyond
compensation, are intended to punish,
and label defendants wrongdoers” as a

9
consequence of violating public laws, . . .
they represent a penalty and thus fall
within the 5-year statute of limitations of
§ 2462.
137 S. Ct. at 1644-45.
3. Liu v. SEC. In Liu, this Court outlined an
equitable relief exception to the general rule that
disgorgement is a penalty when a disgorgement
award “does not exceed a wrongdoer’s net profits and
is awarded for victims. . . .” Liu v. SEC, 140 S. Ct. at
1940. Notably, in order to ascertain whether this
exception was applicable, the Court vacated the
judgment and remanded the case with instructions
for the lower courts to “ensure the award was so
limited.” Id. Elaborating on this issue, the Court
clarified, “Courts may not enter disgorgement awards
that exceed the gains ‘made upon any business or
investment, when both the receipts and payments are
taken into the account.’” Id. at 1949-50 (citation
omitted).
B. Factual and Procedural History.
1. The Administrative Proceedings Before
the BCSC. The BCSC bifurcates its administrative
proceedings into two “portions,” being a “liability
portion” and a “sanctions portion,” similar to how an
American court might divide the liability and punitive
damages phases of a trial. On July 8, 2014, in the
liability portion, Lathigee was found liable for
violating § 57(b) of the British Columbia Securities

10
Act (“BCSA”). 5 Joint Appendix (“JA”) 755-820;
App.49a-76a.
The decision of the “sanctions portion” of the
BCSC’s hearing, resulting in the “Disgorgement
Order,” was issued on March 16, 2015. App. 50a, at
¶ 1. The order specifically stated, “This is the
sanctions portion of a hearing pursuant to sections
161(1) and 162 of the Securities Act. . . .” Id. (emphasis
added). The Disgorgement Order required “under
section 161(1)(g) [of the BCSA] RSBC, 1996, c. 418],
Lathigee pay to the Commission CAD$21.7 million,
being the total amount obtained, directly or
indirectly, as a result of his contraventions of the Act.
. . .” App. 74a, at ¶ 62(b)(iv).
Section 161(1)(g) of the BCSA provides:
If the commission or the executive
director considers it to be in the public
interest, the commission or the executive
director, after a hearing, may order one
or more of the following: . . . (g) if a person
has not complied with this Act, the
regulations or a decision of the
commission or the executive director,
that the person pay to the commission
any amount obtained, or payment or loss
avoided, directly or indirectly, as a result
of the failure to comply or the
contravention. . . .”
1 JA 78, at ¶ 1.

11
The BCSC registered the sanctions decision in
the British Columbia Supreme Court on April 15,
2015, under § 163(1) of the BCSA which allows the
Securities Commission to file a decision with the BC
Supreme Court. “This does not involve an
adjudication on the merits but is a registration
process to facilitate the collection of monetary orders
made by BCSC Panels.” 1 JA 144, at ¶ 3.
Lathigee appealed the sanctions decision, and
on May 31, 2017, the Court of Appeal for British
Columbia issued its opinion in Poonian v. BCSC, 2017
BCCA 207 (2017), which was a similar appeal
involving different litigants that was combined with
Lathigee’s appeal. 1 JA 74-125.
On February 12, 2018, the BCSC attempted to
register (which is a much more abbreviated and
clerical-type procedure than to recognize) the
Disgorgement Order in Clark County, Nevada case
no. A-18-769386-F (Dept. 12), under the Nevada
Uniform Enforcement of Foreign Judgments Act
(“NUEFJA”), Nev. Rev. Stat § 17.330 et seq.
However, as the NEUFJA is limited to so-called
sister-state judgments from other U.S. jurisdictions
that are entitled to Full Faith and Credit under the
U.S. Constitution, i.e., “foreign” in the NUEFJA
means “other states.” The BCSC, thus, stipulated to
dismiss that improvidently-filed action.
2. Proceedings Before the State District
Court. On March 20, 2018, the BCSC filed the
Nevada state litigation, 1 JA 1, seeking recognition of

12
the Disgorgement Order, 1 JA 10-16, under two
causes of action: First, under the Nevada Uniform
Recognition of Foreign-Country Money Judgments
Act (“NURF-CMJA”), Nev. Rev. Stat. § 17.700 et seq.,
and, second, under comity. The parties each
conducted some very limited written discovery, after
which both parties moved for summary judgment.
1 JA 32 & 149. Ultimately, on May 14, 2019, the
District Court denied Lathigee’s motion for summary
judgment, granted the BCSC’s countermotion for
summary judgment, and entered judgment for the
BCSC which recognized the Disgorgement Order.
App. 17a-48a.
In the state District Court proceedings,
Lathigee raised his arguments based on Huntington
and Kokesh. App. 35a-38a. However, Liu had not yet
been decided. The District Court rejected the
applicability of Huntington and Kokesh, reaching the
conclusion that “the British Columbia judgment
sought to be recognized by this Court is not penal. . .
.” App. 36a. The District Court also concluded that the
holding of Kokesh was limited to the SEC and, thus,
not applicable to the BCSC. App. 37a-39a. Finally, the
District Court reasoned that Huntington was also
inapplicable to this case because its holdings do not
apply to foreign country judgments, as in the instant
case. App. 39a-41a.
3. Proceedings
Before
the
Nevada
Supreme Court. After Lathigee appealed to the
Nevada Supreme Court, the case was assigned to the
en banc panel of the Court. App. 1a. After the case

13
was fully briefed, this Court issued Liu, which was
addressed only by supplemental authorities, not
supplemental briefs. Thus, the Nevada Supreme
Court’s opinion addressed Huntington, Kokesh, and
Liu.
With regard to Huntington, the Nevada
Supreme Court determined the word “penal” has
“different shades of meaning” depending on the
context. App. 7a. Although the Supreme Court
recognized that a single judgment can include “both
an unenforceable penalty and an enforceable
remedial award, the Court eventually favored the
enforceability of the Disgorgement Order. Id. The
Supreme Court then reasoned that the Disgorgement
Order could be viewed as remedial. App. 8a-9a.
Analyzing Kokesh, the Nevada Supreme Court,
similar to the District Court, suggested that it would
be inapplicable to foreign country judgments, such as
the Disgorgement Order. App. 11a. The Supreme
Court, nevertheless, analyzed Kokesh on its merits
but only within the context of Liu. App. 11a-12a.
Tellingly, however, the Supreme Court did not permit
the remedy allowed by this Court for a remand to
determine if an equitable exception existed to salvage
the Disgorgement Order. App. 1a-16a.
Since Liu was issued after the Nevada
Supreme Court was fully briefed, and only by
supplemental authorities, Lathigee filed a petition for
rehearing, which included a discussion of Liu.

14
Without any discussion, the Supreme Court denied
rehearing. App. 77a-78a.
REASONS FOR GRANTING THE PETITION
A. The Nevada Supreme Court Opinion
Conflicts With Both Huntington and
Kokesh.
Building on Huntington, this Court observed in
Kokesh, as an initial factor, that disgorgement is a
penalty because it is a public law that gives rise to
disgorgement. 137 S. Ct. at 1643. “The violation for
which the remedy is sought is committed against the
United States rather than an aggrieved individual—
this is why, for example, a securities-enforcement
action may proceed even if victims do not support or
are not parties to the prosecution.” Id. As applied
here, § 161(1)(g) of the BCSA is clearly a public law,
which is implicated if, and only if, “the commission or
the executive director considers it to be in the public
interest.” 1 JA 100, at ¶ 83. Thus, the Disgorgement
Order declared, “We find that it is in the public
interest to order the respondents to pay the full
amount obtained as a result of their fraud.” App. 68a,
at ¶ 49.
The Poonian decision repeatedly stated that
disgorgement under § 161(1)(g) must further the
public interest. 1 JA 85, at ¶ 34 (“The Executive
Director argues the issues raised by s. 161(1)(g) are
distinct from those under § 155.1(b) because an order
may be made, in the opening language of § 161(1), ‘If
the commission or the executive director considers it

15
to be in the public interest.…’ For its part, § 155.1
does not require the court to consider the public
interest. The Executive Director argues this signals
a different ‘statutory context.’”); 1 JA 85, at ¶ 35
(“Unlike the Copyright Board, the Commission is a
‘discrete and special administrative regime’, charged
under the Act to protect the public interest in relation
to investors and capital markets.”); 1 JA 85, at ¶ 40
(“To be clear, the issue to be resolved on this appeal is
not whether a disgorgement order would be in the
public interest, nor is the issue whether there has
been non-compliance with the Act. Those requisite
elements of a § 161(1)(g) order are not before this
Court.”); 1 JA 89, at ¶ 49 (“I recognize the
Commission’s important public interest mandate that
informs the Commission’s exercise of discretion to
make an order under § 161(1), which provides a host
of tools to the Commission to use alone or in
combination.”); 1 JA 93, at ¶ 58 (“Principles that apply
to all sanction orders are applicable to section
161(1)(g) orders, including: a) a sanction is
discretionary and may be applied where the panel
determines it to be in the public interest”) (quoting Re
Michaels, 214 BCSECCOM 457 (2014)); 1 JA 95, at ¶
67 (“The Executive Director stresses the important
and specialized role of the Commission in crafting
sanctions that are in the public interest in the
particular circumstances of the case before it.”);
1 JA 119, at ¶ 112 (“Disgorgement is a specific tool,
and the Commission must not, in the name of the
public interest, use that tool in such a way as to
extend it beyond its specific, permissible purpose.”);
1 JA 120, at ¶ 144 (“I agree with and adopt the two-

16
step approach identified by Vice Chair Cave in SPYru
[Re SPYru Inc., 2015 BSCECCOM 452 (2015)] at
paras. 131-32: . . . The second step of my analysis is to
determine if it is in the public interest to make such
an order. It is clear from the discretionary language
of section 161(1)(g) that we must consider the public
interest, including issues of specific and general
deterrence.”); 1 JA 124, at ¶ 165 (“Of course, it is also
for the Commission to determine whether it is in the
public interest to make any order under § 161(1)(g).”).
The BCSC’s expert witness, Mr. Gordon R.
Johnson, 1 JA 131-39, included as support for his
opinion a long passage from the British Columbia
Court of Appeals in Poonian v. British Columbia
Securities Commission, 2017 BCCA 207 (B.C. App.
2017), which quoted a similar opinion, Committee for
the Equal Treatment of Asbestos Minority
Shareholders v. Ontario (Securities Commission), 201
SCC 37 at ¶ 42 (CanLII, 2001), arising from a
comparable law in Ontario:
The purpose of the Commission’s public
interest jurisdiction is neither remedial
nor punitive; it is protective and
preventive, intended to be exercised to
prevent likely future harm to Ontario’s
capital markets. . . The focus of the
regulatory law is on the protection of
societal interests, not the punishment of
an individual’s moral faults. . . .
1 JA 132-33.

17
Lathigee’s expert, Mr. Sullivan, opined that a
consideration of the public interest is required under
§ 161: “The pre-conditions to the ordering of orders
under Sections 161 and 162 of the BC Securities Act
are a determination that the person has contravened
a provision of the BC Securities Act and a
consideration of the public interest.” 1 JA 146, at ¶ 3.
The bottom line is that there can be no reasonable
dispute that disgorgement orders imposed under
§ 161(1)(g), including the Disgorgement Order
imposed against Lathigee, arise from a public law,
and further public interests, not private ones.
With regard to the second Kokesh factor,
Justice Sotomayor determined that disgorgement is
imposed for punitive purposes, to both deprive
defendants of the profits of their activities and to
deter future violations. 137 S. Ct. at 1643. “Sanctions
imposed for the purpose of deterring infractions of
public laws are inherently punitive because
deterrence is not a legitimate nonpunitive
governmental objective.” Id. (internal quotation
marks and citations omitted). The Disgorgement
Order concluded, “Orders under sections 161(1) and
162 are protective and preventative, intended to be
exercised to prevent future harm. See Committee for
Equal Treatment of Asbestos Minority Shareholders v.
Ontario (Securities Commission), 2001 SCC 37. App.
53a, at ¶ 5. The Disgorgement Order stated that
relevant considerations in determining whether to
order sanctions include: (1) “the damage done to the
integrity of the capital markets in British Columbia
by the respondent’s conduct”; (2) “the need to

18
demonstrate the consequences of inappropriate
conduct to those who enjoy the benefits of access to
the capital markets”; and (3) “the need to deter those
who participate in the capital markets from engaging
in inappropriate conduct.” App. 53a, at ¶ 6.
The Poonian decision affirmed that a purpose
of § 161(1)(g) is deterrence. 1 JA 100, at ¶ 82 (“The
taking away of any amounts obtained or payment or
loss avoided deprives a person who fails to comply of
any benefit. Therefore, the person is deterred from
non-compliance. In that sense, § 161(1)(g) also has a
deterrence purpose. This purpose is consistent with
the Act’s overarching remedial and protective
nature.”); 1 JA 105, at ¶ 102 (“[S]ummarizing the
underlying principles of disgorgement . . . disgorgement reflects the equitable policy designed to remove
all money unlawfully obtained by a respondent so that
the respondent does not retain any financial benefit
from breaching the Act.”) (internal quotation marks
and citation omitted); 1 JA 106, at ¶ 105 (same effect);
1 JA 108, at ¶ 112 (Disgorgement’s “purpose is to
prevent wrongdoers from retaining amounts obtained
from their wrongdoing.”); 1 JA 111, at ¶ 120 (“The
public interest is not unlimited. In my opinion,
disgorgement may not go further than required to
prevent each wrongdoer from retaining an amount
obtained, directly or indirectly, as a result of the
wrongdoing. Nor does deterrence require more.”);
1 JA 119, at ¶ 143(1) (“The purpose of § 161(1)(g) is to
deter persons from contravening the Act by removing
the incentive to contravene, i.e., by ensuring the

19
person does not retain the “benefit” of their
wrongdoing.”).
The opinion of the BCSC’s own expert, Mr.
Johnson, repeatedly made clear that the purpose of
the British Columbia law under which disgorgement
is authorized is designed to deprive the defendant of
wrongful profits and deter future violations, and
thereby force compliance with British Columbia’s
security laws:
The British Columbia Court of Appeal
expresses the purpose of the Section
161(1)(g) remedy most clearly at
paragraph 111 of the Poonian decision.
There the Court makes it clear that the
purpose is not to punish or to
compensate. The purpose of the remedy
is to deter non-compliance by removing
the prospect of receiving and retaining
moneys from non-compliance.
1 JA 133-34.
“Disgorgement is a specific tool, and the
Commission must not, in the name of public interest,
use that tool in such a way as to extend it beyond its
specific, permissible purpose. Its purpose is to prevent
wrongdoers from retaining amounts obtained from
their wrongdoing.” 1 JA 133, at ¶ 112. “The
‘disgorgement’ remedy has the purpose of removing
the incentive for non-compliance.” 1 JA 134, at ¶ 5.
Accordingly, there can be no reasonable dispute that
disgorgement orders, imposed under § 161(1)(g),

20
including the instant Disgorgement Order, are
imposed to deprive the defendant, such as Lathigee,
of wrongful profits and deter future violations. In
other words, the goal is deterrence, which is an
objective achieved by imposing appropriate penalties.
1 JA 147, at ¶ 5.
The Nevada Supreme Court’s opinion further
conflicts with Kokesh because the Poonian decision
repeatedly stated that disgorgement under § 161(1)(g)
is not punitive or compensatory. 1 JA 96, at ¶ 70 (“It
is clear, in my opinion, that the purpose of § 161(1)(g)
is neither punitive nor compensatory. This view is
held consistently among the various decisions of the
Commission and the securities commissions of other
provinces.”) (citations omitted); 1 JA 97, at ¶ 75 (“In
my view, it does not follow that just because moneys
collected under certain sections may be used for
‘compensation,’ the sections giving rise to orders to
pay those moneys (§§ 155.1(b), 157(1)(b), 161(1)(g),
and 162) have a compensatory purpose. . . .
[C]onsidering the extensive case law discussing the
purpose of § 161(1)(g) and its nature as a sanction, I
would endorse the view of the Commission in
Michaels at para. 42, which concluded that ‘the
sanction does not focus on compensation or restitution
or act as a punitive or deterrent measure over and
above compelling the respondent to pay any amounts
obtained from the contravention(s) of the Act.’”);
1 JA 98, at ¶ 76 (“While ‘compensation’ may well be a
possible effect of a § 161(1)(g) order, I cannot say that
is its purpose. Any analysis of restitution would arise
under § 15.1, not § 161(1)(g).”); 1 JA 98, at ¶ 77 (“This

21
conclusion is also consistent with the observation that
generally the power to order a person who has
contravened the Act to pay compensation or
restitution is reserved for the courts (§§ 155.1(a) and
157(1)(i) and 0)). While a victim may receive money
from the § 15.1 mechanism, that is distinct from the
power to order restitution. First, notice to the public
under this ‘expeditious’ method is only made after
money has been received through an order. If no
money is received, the mechanism is not engaged.
Second, the victim has no enforceable order against
the wrongdoer, whereas §§ 155.2(1) and (3) give the
person to whom the court awards compensation all
the usual enforcement tools available for court
orders.”) (italics in original); 1 JA 98, at ¶ 78 (“I also
find persuasive Vice Chair Cave’s explanation in
Streamline (in dissent) as to why compensation or
restitution is not the purpose of a § 161(1)(g) order:
‘Compensation or restitution to investors is not the
purpose of a disgorgement order. Only the BC
Supreme Court can order compensation or restitution
under the Act, pursuant to sections 155.1(a) or
157(1)(i). Since these two provisions specifically refer
to compensation and restitution, it would be incorrect
to interpret section 161(1)(g) as also being a
compensation or restitution provision. The wording of
section 161(1)(g) shows it is not a compensation or
restitution provision. The goal of restitution is to
restore the victim to his or her original position, which
requires the court to consider victims’ losses. In
contrast, section 161(1)(g) requires the panel to
consider the amount obtained as a result of
misconduct. These are two different things. For

22
example, a court order for compensation or restitution
may include more than what an investor actually
invested (and a respondent obtained), such as interest
payments or loss of opportunity. A respondent would
not have obtained these amounts as a result of
misconduct and consequently an order under section
161(1)(g) that included these amounts would be
broader than what that section allows.’ “I note further
the Commission is expressly prohibited from
including loss of opportunity and interest on the loss
in determining an applicant’s loss under the Part 3,
§ 15.1 claims mechanism: Securities Regulation,
§ 7.4(3).”); 1 JA 99, at ¶ 80 (“I also agree with the
decisions of securities commissions in British
Columbia and across the country concluding
s. 161(1)(g), or its counterparts, is not compensatory
in nature.”); 1 JA 105, at ¶ 102 (Disgorgement “is not
a compensation mechanism for victims of the
wrongdoing.”) (internal quotation marks and citation
omitted); 1 JA 109, at ¶ 112. (Disgorgement “is not to
punish or compensate, although those aims are
achievable by other means in the Act, or in
conjunction with other sections of the Act.”); 1 JA 119,
at ¶ 143(2) (“The purpose of § 161(1)(g) is not to
punish the contravener or to compensate the public or
victims of the contravention.”).
The Poonian decision also recognized that any
disgorged funds remaining, after all claims have been
made, are not returned to the defendant but may be
used by the BCSC for educational purposes. 1 JA 96,
at ¶ 72 (“Sections 15 and 15.1 of the Act address what
the Commission may do with funds received under

23
§ 161(1)(g). . . After the requisite period of time has
expired, the Commission may use any remaining
funds only for educating securities market
participants and the public about investing, financial
matters or the operation or regulation of securities
markets (§ 15(3)).”).
Further, the BCSC’s own expert, Mr. Johnson,
himself pointed out that the purpose of disgorgement
is not—repeat, not—to compensate investors: “Its
[disgorgement] purpose is to prevent wrongdoers from
retaining amounts obtained from their wrongdoing. It
is not to punish or compensate. . . .” 1 JA 109. And
later, “I disagree with the suggestion that because
compensation is not the objective of Section 161(1)(g)
therefor disgorgement is not an objective.
Disgorgement and compensation are different
concepts.” 1 JA 135. At the end of the day, the Nevada
Supreme Court’s opinion conflicts with Kokesh
because disgorgement orders imposed under
§ 161(1)(g), including the instant Disgorgement
Order, are not compensatory in nature.
The Nevada Supreme Court concluded that it
could construe the Disgorgement Order as having
both qualities of an unenforceable penalty and an
enforceable remedial award, while still ultimately
enforcing the order. App. 7a-9a. However, this Court
specifically held in Kokesh that such “mixed motives”
do not remove the penalty from a disgorgement order.
137 S. Ct. at 1644-45 (“A civil sanction that cannot
fairly be said solely to serve a remedial purpose, but
rather can only be explained as also serving either

24
retributive or deterrent purposes, is punishment, as we
have come to understand the term. . . Because
disgorgement orders ‘go beyond compensation, are
intended to punish, and label defendants wrongdoers’
as a consequence of violating public laws, . . . they
represent a penalty and thus fall within the 5-year
statute of limitations of § 2462.”) (italics added).
In the end, the Nevada Supreme Court’s
opinion conflicts with Huntington and Kokesh on
several levels.
B. The Nevada Supreme Court Opinion Also
Conflicts With the Remedy Allowed by the
Court in Liu.
In Liu, this Court outlined an equitable relief
exception to the general rule that disgorgement is a
penalty when a disgorgement award “does not exceed
a wrongdoer’s net profits and is awarded for victims.
. . .” Liu v. SEC, 140 S. Ct. at 1940 (italics added).
Obviously, before any court can apply this exception
to remove a disgorgement order from the
presumptions in Huntington and Kokesh, there must
be a factual predicate. Importantly, there is no record
evidence that Lathigee ever received any funds by
fraud or misconduct, let alone had any profits. In fact,
the record presupposes that Lathigee personally
received proceeds of fraud when he had none.
At the administrative level, the Executive
Director of the BCSC argued that “section 161(1)(g)
is not limited to requiring payment of the amount
obtained by a respondent. He cited Oriens Travel &

25
Hotel Management Ltd., 2014 BCSBCCOM91 and
Michaels.” 1 JA 13, ¶ 36 (underline in original). The
court then agreed with the Executive Director:
¶ 37 The Commission in Oriens and
Michaels held that an order against a
respondent for payment of the full
amount obtained as a result of his
contravention of the Act is possible
without having to establish that the
amount
obtained
through
the
contravention was obtained by that
respondent.
¶ 38 We agree with the principles
articulated and approaches taken in the
illegal distribution and fraud cases
canvassed above. They are even more
compelling in cases of fraud. We should
not read section 161(1)(g) narrowly to
shelter individuals from that sanction
where the amounts were obtained by the
companies that they directed and
controlled.
1 JA 13-14, ¶¶ 37-38 (underline in original).
Additionally, BCSC’s own expert witness, Mr.
Gordon R. Johnson, confessed, “Certainly, I agree the
impact of the remedy is significant in that the order
in question requires Mr. Lathigee to pay $21,700,000
Canadian without proof that Mr. Lathigee personally
received that amount.” 1 JA 132 (italics added).
Therefore, the Supreme Court’s opinion further

26
conflicts with Liu because Lathigee had no
opportunity in a remand proceeding to factually
demonstrate that the Disgorgement Order cannot be
enforced against him according to the equitable relief
exception in Liu. See id. at 1940.
Due to the obvious conflicts in the Nevada
Supreme Court’s opinion with Liu, this Court should,
at a very minimum, vacate the Supreme Court’s
opinion and order a remand to the District Court for
compliance with this Court’s precedents, including
Liu.
CONCLUSION
For the foregoing reasons, this petition for a
writ of certiorari should be granted.
Respectfully submitted,
John W. Muije
JOHN W. MUIJE
& ASSOCIATES
3216 Lone Canyon Court
North Las Vegas, Nevada
89031

August 5, 2021

Micah S. Echols
Counsel of Record
CLAGGETT & SYKES
LAW FIRM
4101 Meadows Lane,
Suite 100
Las Vegas, Nevada 89107
(702) 655-2346
micah@claggettlaw.com
Counsel for Petitioner

APPENDIX

TABLE OF CONTENTS
Appendix A:

Opinion of the Nevada Supreme
Court,
Dec. 10, 2020 .............................1a

Appendix B:

Findings of Fact, Conclusions of
Law and Judgment of the
District Court,
May 14, 2019 ...........................17a

Appendix C:

Judgment of the British
Columbia Supreme Court,
April 1, 2015 ............................49a

Appendix D:

Order Denying Rehearing,
Mar. 18, 2021 ..........................63a

APPENDIX A

In the Supreme Court of the State of Nevada
______________________
No. 78833
______________________
MICHAEL PATRICK LATHIGEE
Appellant,
v.
BRITISH COLUMBIA SECURITIES
COMMISSION,
Respondent.
______________________
OPINION
______________________
FILED: December 10, 2020
______________________
BEFORE THE COURT EN BANC
Appeal from the final district court order
recognizing and enforcing a Canadian judgment.
Eighth Judicial District Court, Clark County;
Adriana Escobar, Judge.
Affirmed.

(1a)

2a
BEFORE THE COURT EN BANC.
OPINION
By the Court, Pickering, C.J.:
This is an appeal from a district court decision
to recognize and enforce in Nevada the disgorgement
portion of a securities-fraud judgment from British
Columbia. Appellant Michael Lathigee objects that
the disgorgement judgment is in the nature of a fine
or penalty, so it should not be enforced outside
Canada. We disagree and affirm.
I.
Respondent British Columbia Securities
Commission (BCSC) initiated proceedings against
Lathigee under the British Columbia Securities Act
(BC Securities Act). After a six-day hearing, in which
Lathigee participated with counsel, the BCSC found
that Lathigee had perpetrated a fraud, violating
section 57(b) of the BC Securities Act, when he raised
$21.7 million (CAD) from 698 Canadian investors
without disclosing the failed financial condition of the
entities he and his associate controlled. As sanctions,
the BCSC imposed a disgorgement order on Lathigee
under section 161(1)(g) of the BC Securities Act. The
disgorgement order directs Lathigee to pay the illgotten $21.7 million (CAD) to the BCSC. Section 15.1
of the BC Securities Act and its associated regulations
provide a notice-and-claim procedure by which the
BCSC notifies the public and attempts to return any
disgorged funds it recovers to the defrauded investors.

3a
The BCSC also imposed a $15 million (CAD)
administrative penalty on Lathigee.
The BCSC registered its decision with the
British Columbia Supreme Court—roughly, the
equivalent of a Nevada district court. Upon registry,
the decision became an enforceable judgment by
operation of section 163(2) of the BC Securities Act.
Lathigee sought and obtained leave to appeal to
British Columbia’s highest court, its Court of Appeal,
which rejected Lathigee's appeal on the merits.
Poonian v. BCSC, 2017 BCCA 207 (CanLII). With
this, the judgment became final and enforceable
under British Columbia law.
Lathigee left Canada and relocated to Nevada
without paying the judgment. The BCSC then filed
the two-count complaint underlying this appeal in
Nevada district court. In its complaint, the BCSC
asked the district court to recognize and enforce the
$21.7 million (CAD) disgorgement portion of its
judgment against Lathigee: (1) under NRS 17.750(1),
which directs recognition and enforcement of foreigncountry money judgments except, as relevant here,
“to the extent that the judgment is ... [a] fine or other
penalty,” NRS 17.740(1), (2)(b); and/or (2) as a matter
of comity. The complaint did not seek to enforce the
$15 million (CAD) administrative penalty the
judgment imposed. Despite this, Lathigee objected
that the disgorgement portion of the BCSC judgment
also constitutes a fine or penalty, so neither NRS
17.750(1) nor comity supports its recognition and
enforcement in Nevada.

4a
The case came before the district court on
cross-motions for summary judgment. Ruling for the
BCSC, the district court recognized the disgorgement
judgment as enforceable under NRS 17.750(1). It held
that the judgment did not constitute a penalty but,
rather, an award designed to afford eventual
restitution to the defrauded investors under the
notice-and claim mechanism provided by section 15.1
of the BC Securities Act. In addition, citing the close
ties between Canada and the United States and the
fact that Canadian courts have recognized and
enforced United States Securities Exchange
Commission (SEC) disgorgement judgments, the
district court recognized the judgment based on
comity. Lathigee timely appealed.
II.
Nevada has adopted the Uniform ForeignCountry Money Judgments Recognition Act (2005), 13
pt. II U.L.A. 18-43 (Supp. 2020) (Uniform Act), in NRS
17.700 through NRS 17.820. The Act applies to
foreign-country judgments that grant or deny
monetary recovery and are “final, conclusive, and
enforceable” under the law of the jurisdiction where
rendered. NRS 17.740(1). A Nevada court “shall
recognize a foreign country judgment to which NRS
17.700 to 17.820, inclusive, apply,” NRS 17.750(1)
(emphasis added), unless one of the grounds for nonrecognition stated in NRS 17.750(2) or (3) is proved or

5a
one of the categorical exceptions stated in NRS
17.740(2)(a), (b), or (c) applies.1
By its terms, the Act does not apply “to the
extent that the judgment is . . . [a] fine or other
penalty.” NRS 17.740 (2)(b). But the Act contains a
“savings clause,” see NRS 17.820, under which “courts
remain free to consider” whether a judgment that
falls outside the Act “should be recognized and
enforced under comity or other principles.” Uniform
Act § 3, cmt. 4, supra, 13 pt. II U.L.A. at 26.
Essentially, the Act sets base-line standards, not
outer limits. It “delineates a minimum of foreigncountry judgments that must be recognized by the
courts of adopting states, leaving those courts free to
recognize other foreign-country judgments not
covered by the Act under principles of comity or
otherwise.” Uniform Act prefatory note, 13 pt. II
U.L.A. at 19.
Statutory interpretation presents a question of
law to which de novo review applies. See Friedman v.
Eighth Judicial Dist. Court, 127 Nev. 842, 847, 264
P.3d 1161, 1165 (2011). “In applying and construing
“A party resisting recognition of a foreign-country
judgment has the burden of establishing that a
ground for nonrecognition stated in [NRS 17.750]
subsection 2 or 3 exists.” NRS 17.750(4). Conversely,
“A party seeking recognition of a foreign-country
judgment has the burden of establishing that NRS
17.700 to 17.820, inclusive, apply to the foreign
country judgment.” NRS 17.740(3).
1

6a
the Uniform Foreign-Country Money Judgments
Recognition Act, consideration must be given to the
need to promote uniformity of the law with respect to
its subject matter among states that enact it.” NRS
17.810. To this end, we accept as persuasive authority
the official comments to the Uniform Act and the
decisions of courts elsewhere interpreting it. See
Friedman, 127 Nev. at 847, 264 P.3d at 1165.
A.
Lathigee admits that the disgorgement
judgment grants monetary recovery; that it is final,
conclusive, and enforceable under British Columbia
law; and that neither the grounds for non-recognition
specified in NRS 17.750(2) and (3) nor the categorical
exceptions stated in NRS 17.740(2)(a) and (c) apply.
NRS 17.750(1) thus mandates recognition of the
BCSC’s disgorgement judgment except “to the extent”
that it is a “fine or other penalty.” NRS 17.740(2)(b).
That is, in this case, the $21.7 million (CAD) question.
The Uniform Act does not define what
constitutes a judgment for a “fine” or “penalty.” Its
fine-or-penalty exception codifies the common law
rule against one sovereign enforcing the criminal laws
and penal judgments of another. Chase Manhattan
Bank, N.A. v. Hoffman, 665 F. Supp. 73, 75 (D. Mass.
1987) (cited in Uniform Act § 3, cmt. 4, 13 pt. II U.L.A.
at 26); see The Antelope, 23 U.S. 66, 123 (1825) (“The
Courts of no country execute the penal laws of another
. . . .”). The Supreme Court's decision in Huntington v.
Attrill, 146 U.S. 657 (1892), stands as the seminal

7a
authority on the common law rule against enforcing
foreign penal judgments. Chase Manhattan Bank,
665 F. Supp. at 75; see City of Oakland v. Desert
Outdoor Advert., Inc., 127 Nev. 533, 538, 267 P.3d 48,
51 (2011). As Huntington recognizes, 146 U.S. at 666,
the word “penal” has “different shades of meaning,”
depending on context. “The question whether a
statute of one state, which in some aspects may be
called penal, is a penal law, in the international sense,
so that it cannot be enforced in the courts of another
state, depends upon . . . whether its purpose is to
punish an offense against the public justice of the
state, or to afford a private remedy to a person injured
by the wrongful act.” Id. at 673-74.
Consistent with Huntington, “the test for
whether a judgment is a fine or penalty”—and so
outside the Uniform Act’s (and NRS 17.750(1)’s)
recognition mandate— “is determined by whether its
purpose is remedial in nature with its benefits
accruing to private individuals, or it is penal in
nature, punishing an offense against public justice.”
Uniform Act § 3, cmt. 4, 13 pt. II U.L.A. at 26. The test
is more nuanced than its binary phrasing suggests. A
single judgment can include both an unenforceable
penalty and an enforceable remedial award. See
Restatement (Fourth) of the Foreign Relations Law of
the United States § 489 cmt. d (Am. Law Inst. 2018).
And a money judgment, particularly one that runs in
favor of a governmental entity, can serve both
remedial and public or penal purposes. Under the
Uniform Act, “a judgment that awards compensation
or restitution for the benefit of private individuals

8a
should not automatically be considered penal in
nature and therefore outside the scope of the Act
simply because the action is on behalf of the private
individuals by a government entity.” Id. § 3, cmt. 4,
13 pt. II U.L.A. at 26. On the contrary, when a foreign
“government agency obtains a civil monetary
judgment for purpose[s] of providing restitution to
consumers, investors, or customers who suffered
economic harm due to fraud, [the] judgment generally
should not be denied recognition and enforcement on
[the] ground[s] that it is penal . . . in nature or based
on . . . foreign public law.” Id.; see Restatement (Third)
of the Foreign Relations Law of the United States
§ 483 cmt. b (Am. Law Inst. 1987) (defining an
unenforceable foreign “penal judgment” as “a
judgment in favor of a foreign state or one of its
subdivisions” that is “primarily punitive rather than
compensatory is character”) (emphasis added).
Applying these principles to the disgorgement
portion of the BCSC judgment, we reject the
contention that it constitutes an unenforceable
penalty. The BCSC recovered its disgorgement award
under section 161(1)(g) of the BC Securities Act. This
statute authorizes the BCSC to recover “any amount
obtained[,] directly or indirectly, as a result of” the
Securities Act violation. Standing alone, section
161(1)(g)’s purpose is “neither punitive nor
compensatory.” Poonian, 2017 BCCA 207, at 23, ¶ 70.
But, unlike the $15 million (CAD) penalty portion of
the judgment, which was calculated according to the
$1 million (CAD) per violation schedule set by section
162 of the BC Securities Act, the $21.7 million (CAD)

9a
disgorgement award represents the exact amount of
money Lathigee and his associate obtained from the
698 investors they defrauded. Such disgorgement
serves “to eliminate profit from wrongdoing while
avoiding, so far as possible, the imposition of a
penalty.” Restatement (Third) of Restitution and
Unjust Enrichment § 51(4) (Am. Law Inst. 2011)
(noting that “Restitution remedies that pursue this
object are often called ‘disgorgement’ or ‘accounting’”);
see id. cmt. e (“The object of the disgorgement
remedy—to eliminate the possibility of profit from
conscious wrongdoing—is one of the cornerstones of
the law of restitution and unjust enrichment.”).2 The
fact that section 161(1)(g) calculates the disgorgement
award by the amount of money the wrongdoer
“obtained,” not by reference to a schedule of fines or
penalties, weighs in favor of treating the BCSC’s
disgorgement award as remedial, not punitive.

We recognize that the BCSC disgorgement judgment
imposes joint and several liability on Lathigee and his
associate and the entities they controlled. It did so
based on findings that established that Lathigee and
his associate and their corporate entities were
“effectively one person.” Poonian, 2017 BCCA 207, at
42-13, 49-51, ¶¶ 133, 154-162. The equally culpable,
concerted wrongdoing in which the BCSC found
Lathigee and his associate engaged supports the
imposition of collective liability without transmuting
the award from restitutionary to punitive. See Liu v.
SEC, 591 U.S. ___, ___, 140 S. Ct. 1936, 1949 (2020).
2

10a
The judgment subjects any recovery the BCSC
makes on its section 161(1)(g) disgorgement award to
section 15.1 of the BC Securities Act. Section 15.1 and
its related regulations provide a notice-and-claim
procedure for the BCSC to return any money it
collects on the disgorgement award to the investors
the Securities Act violation harmed. The award does
not represent a fine or penalty that, once collected, the
BCSC can keep without obligation to the victims of
the fraud. Cf. City of Oakland, 127 Nev. at 542, 267
P.3d at 54 (deeming a fine imposed and kept by the
City of Oakland for violating its zoning ordinances
penal and not compensatory). This, too, weighs in
favor of treating the disgorgement award as more
remedial than punitive.
Disgorgement in securities enforcement
actions can take various forms, not all of them
restitutionary. See Jennifer L. Schulp, Liu v. SEC:
Limited Disgorgement, But by How Much?, 2019-2020
Cato Sup. Ct. Rev. 203, 207-10 (2020). But the
disgorgement award in this case deprives Lathigee
and his associate of the money they obtained from the
investors they defrauded. See Poonian, 2017 BCCA
207, at 20, 23, ¶¶ 61, 70. And, under section 15.1 and
its related regulations, any recovery is designed to
“provid[e] restitution to . . . investors . . . who suffered
economic harm due to fraud,” not to enrich the BCSC.
Uniform Act § 3, cmt. 4, 13 pt. II U.L.A. at 26. We
therefore conclude that, for purposes of NRS
17.750(1), the primary purpose of the disgorgement
award “is remedial in nature with its benefits
accruing to private individuals,” not penal,

11a
“punishing an offense against public justice.” Uniform
Act § 3, cmt. 4, 13 pt. II U.L.A. at 26. See Restatement
(Fourth) of the Foreign Relations Law of the United
States § 489 note 4 (“Although courts in the United
States applying these rules frequently look to foreign
practice, . . . the character of a foreign judgment as
[penal] is a question of U.S. law.”).
Lathigee acknowledges the statutes and
authorities just cited but insists that Kokesh v. SEC,
581 U.S. ___, 137 S. Ct. 1635 (2017), compels a
different conclusion. We cannot agree. Kokesh did not
concern recognition of a foreign-country disgorgement
judgment. “The sole question” in Kokesh was
“whether disgorgement, as applied in SEC
enforcement actions, is subject to [the five-year]
limitations period,” id. at ___ n.3, 137 S. Ct. at 1642
n.3, that 28 U.S.C. § 2462 establishes for an “action,
suit or proceeding for the enforcement of any civil fine,
penalty, or forfeiture.”
In Kokesh, both the district court and the Tenth
Circuit Court of Appeals held that § 2462 did not
apply to SEC disgorgement claims, which left them
with “no limitations period” at all. Kokesh, 581 U.S.
at ___,137 S. Ct. at 1641. The Supreme Court
reversed. It held that “[d]isgorgement, as it is applied
in SEC enforcement proceedings, operates as a
penalty under § 2462.” Id. at ___, 137 S. Ct. at 1645.
En route to this holding, the Court acknowledged that
“disgorgement serves compensatory goals in some
cases.” Id. at ___, 137 S. Ct. at 1645. But SEC
disgorgement actions are not limited to recovery of

12a
funds the wrongdoer obtained. Id. at ___, 137 S. Ct. at
1644-45 (noting that “[i]ndividuals who illegally
provide confidential trading information have been
forced to disgorge profits gained by individuals who
received and traded based on that information—even
though they never received any profits). And, unlike
a BCSC disgorgement judgment, where any funds
recovered are subject to the notice-and-claim
procedure BC Securities Act section 15.1 provides
victimized investors, no “statutory command” charges
the SEC with remitting the disgorged funds it
recovers to victims. Id. at ___, 137 S. Ct. at 1644.
In Liu v. SEC, 591 U.S. ___, 140 S. Ct. 1936
(2020), the Supreme Court returned to Kokesh. It
confirmed that the sole question Kokesh decided was
whether 28 U.S.C. § 2462’s limitations period applies
to SEC disgorgement claims. Liu, 591 U.S. at ___, 140
S. Ct. in 1941. What Kokesh did not decide was
“whether a § 2462 penalty can nevertheless qualify as
‘equitable relief under [15 U.S.C.] § 78u(d)(5), given
that equity never ‘lends its aid to enforce a forfeiture
or penalty.’” Id. at ___, 140 S. Ct. at 1941 (quoting
Marshall v. Vicksburg, 82 U.S. 146, 149 (1873)); see
id. at ___, 140 S. Ct. at 1946 (brushing aside the claim
that the Court “effectively decided in Kokesh that
disgorgement is necessarily a penalty, and thus not
the kind of relief available at equity” with a blunt,
“Not so.”). Citing the Restatement (Third) of
Restitution and Unjust Enrichment § 51, Liu
recognizes that to the extent a disgorgement award
redresses unjust enrichment and achieves restitution,
it is situated “squarely within the heartland of

13a
equity,” 591 U.S. at ___, 140 S. Ct. at 1943, and does
not constitute an impermissible penalty. See id. at
___, 140 S. Ct. at 1944. Unlike Kokesh, which adopted
a bright-line rule appropriate to its statute-oflimitations context, Liu counsels a case-by-case
assessment of whether a disgorgement claim seeks
restitution, consistent with equitable principles, or a
penalty, which equity does not allow. See id. at ___,
140 S. Ct. at 1947-50.
B.
Alternatively, even crediting Lathigee’s
argument that NRS 17.740(2)(b) takes the
disgorgement judgment outside NRS 17.750(1)’s
mandatory recognition provisions, the district court
properly recognized it as a matter of comity. The
comity doctrine is “a principle of courtesy by which
‘the courts of one jurisdiction may give effect to the
laws and judicial decisions of another jurisdiction out
of deference and respect.’” Gonzales-Alpizar v.
Griffith, 130 Nev. 10, 18, 317 P.3d 820, 826 (2014)
(quoting Mianecki v. Second Judicial Dist. Court, 99
Nev. 93, 98, 658 P.2d 422, 424-25 (1983)); see Hilton
v. Guyot, 159 U.S. 113, 165 (1895) (stating that comity
“contributes so largely to promote justice between
individuals, and to produce a friendly intercourse
between the sovereignties to which they belong, that
courts of justice have continually acted upon it as a
part of the voluntary law of nations”) (internal
quotation marks omitted). Under comity, Nevada
courts will not “recognize a judgment or order of a
sister state if there is ‘a showing of fraud, lack of due

14a
process, or lack of jurisdiction in the rendering state.’”
Gonzales-Alpizar, 130 Nev. at 19-20, 317 P.3d at 826
(quoting Rosenstein v. Steele, 103 Nev. 571, 573, 747
P.2d 230, 231 (1987), and adopting the limits on
comity stated in the Restatement (Third) of the
Foreign Relations Law of the United States § 482
(Am. Law Inst. 1987)). But otherwise, comity may be
“appropriately invoked according to the sound
discretion of the court acting without obligation.”
Mianecki, 99 Nev. at 98, 658 P.2d at 425; see In re
Stephanie M., 867 P.2d 706, 716 (Cal. 1994)
(reviewing grant of comity for abuse of discretion).
Lathigee does not raise any of the defenses to
comity recognized in Gonzales-Alpizar or the
Restatement (Third) of Foreign Relations Law § 482.
Instead, citing the Restatement (Third) of Foreign
Relations Law § 483, he argues that Nevada need not
and, under Kokesh, should not grant comity to a
foreign-country disgorgement judgment, because
such a judgment constitutes a penalty. But neither
the Restatement (Third) § 483 nor its comments
speak to comity; section 483 simply restates the rule
that “[c]ourts in the United States are not required to
recognize or enforce judgments for the collection of
[fines] or penalties” that NRS 17.740(2)(b) already
provides. And, as discussed, supra, § II.A, Kokesh does
not establish the profound policy against recognizing
and
enforcing
foreign-country
disgorgement
judgments that Lathigee says it does.
The policy of promoting cooperation among
nations has special strength as between Canada and

15a
the United States. The United States shares a long
border with Canada. As the district court found, the
SEC and the securities commissions of each of the
provinces, including the BCSC, often work together,
since the proximity and relations of the two countries
make it easy for fraud to move between them. In fact,
the United States and Canada have signed a
Memorandum of Understanding, which provides that
the “Authorities will provide the fullest mutual
assistance” “to facilitate the performance of securities
market oversight functions and the conduct of
investigations, litigation or prosecution.” And
Canadian courts have upheld SEC disgorgement
judgments repeatedly. United States (SEC) v. Cosby,
2000 BCSC 338, at 3, 15, ¶¶ 4, 26 (CanLII) (enforcing
the disgorgement portion of an SEC judgment against
an individual who engaged in fraudulent schemes to
raise capital for a Nevada corporation and rejecting
the argument that the U.S. disgorgement judgment
was “unenforceable” in British Columbia “because it
is a foreign penal judgment”); id. at 3, 14, ¶¶ 5, 24
(discussing the Canadian decision in Huntington v.
Attrill, [1893] A.C. 150 (P.C.)); see United States
(SEC) v. Peever, 2013 BCSC 1090, at 6, ¶ 18 (CanLII)
(to similar effect; citing Cosby); United States (SEC)
v. Shull, [1999] B.C.J. No. 1823 (S.C.) (same).
“[I]nternational law is founded upon mutuality
and reciprocity. . . .” Hilton, 159 U.S. at 228.
Recognizing these principles, “Canadian judgments
have long been viewed as cognizable in courts of the
United States.” Alberta Sec. Comm’n v. Ryckman, 30
P.3d 121, 126 (Ariz. Ct. App. 2001). The district court

16a
properly recognized the BCSC
judgment under principles of comity.

disgorgement

We therefore affirm.
Pickering
Pickering
We concur:
Gibbons
Gibbons

, J.

Hardesty
Hardesty

, J.

Parraguirre
Parraguirre

, J.

Stiglich
Stiglich

, J.

Cadish
Cadish

, J.

Silver
Silver

, J.

,

C.J.

17a
APPENDIX B
IN THE EIGHTH JUDICIAL DISTRICT COURT
CLARK COUNTY, NEVADA
______________________
No. A-18-771407-C
______________________
BRITISH COLUMBIA SECURITIES
COMMISSION,
Plaintiff,
v.
MICHAEL PATRICK LATHIGEE,
Defendant.
______________________
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND JUDGMENT
______________________
FILED: May 14, 2019
______________________
Before: JUDGE ADRIANA ESCOBAR
______________________

18a
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND JUDGMENT
This matter came before the Court pursuant to
Defendant’s Motion for Summary Judgment, and
Plaintiff s Countermotion for Summary Judgment. At
a hearing on December 4, 2018 Matthew Pruitt, Esq.
appeared on behalf of Plaintiff, and Jay Adkisson,
Esq. appeared on behalf of Defendant.
The Court having reviewed the pleadings and
papers on file, being fully advised in the premises, and
having heard the arguments of counsel, for reasons
stated on the record and good cause appearing
therefor, enters the following findings of fact and
conclusions of law in this matter.
FINDINGS OF FACT
On March 30, 2018, Plaintiff, BRITISH
COLUMBIA
SECURITIES
COMMISSION,
commenced this action by filing a Complaint for
recognition of foreign country judgment under the
Recognition of Foreign-Country Money Judgments
(Uniform Act), found at NRS 17.700 et seq., and under
Comity, naming MICHAEL PATRICK LATHIGEE as
a Defendant. Defendant subsequently answered the
Complaint on April 9, 2018 and filed an Amended
Answer on June 6, 2018. Defendant filed a Motion for
Summary Judgment on October 19, 2018, to which
Plaintiff filed its Opposition and Countermotion on
November 9, 2018.

19a
A.

The Underlying Judgment

On March 16, 2015, the British Columbia
Securities Commission (the “BCSC”) rendered a
decision (the “Decision”) against Defendant pursuant
to a hearing under British Columbia law and
pursuant to sections 161(1) and 162 of the Securities
Act, R.S.B.C. 1996, c. 418 (the “BC Securities Act”).1
On April 1, 2015, and pursuant to section 163 of the
BC Securities Act,2 the BCSC registered the Decision
with the British Columbia Supreme Court, by which
the Decision was deemed to be a judgment of the
British Columbia Supreme Court (the “Judgment”).3
The Judgment was appealed by Defendant, but the
appeal was denied by the Court of Appeal for British
Columbia on May 31, 2017.4 The time for appeal has
expired and no appeal is pending.5
The Judgment is for disgorgement of
$21,700,000.00 CAD, and corresponds to the
$21,700,000.00 CAD which Defendant was found to
have fraudulently raised from 698 investors.6
Defendant was also assessed with an administrative
penalty of $15 Million CAD, which was also registered
with the Supreme Court of British Columbia, but the
Pltf’s Opp & CM Ex 1, p.1.
Id.
3 Id.
4 Pltf’s Opp & CM Ex 16, BCSC_001996 &
BCSC_002047.
5 Pltf’s Opp & CM Ex 1, p.1.
6 Id. at Decision § 2.
1
2

20a
Plaintiff is not requesting that this related judgment
be recognized by this Court.7
a. The Details
In a decision dated July 8, 2014 (the “Liability
Findings”), the BCSC found that Defendant, Mr.
Lathigee, together with others (often referred to as
the FIC Group), perpetrated a fraud, contrary to
section 57(b) of the BS Securities Act when:
(a)
he raised $21.7 million (CAD)
from 698 investors without disclosing to
those investors important facts about
FIC Group’s financial condition; and
(b)
he raised $9.9 million (CAD) from
331 investors for the purpose of investing
in foreclosure properties, and instead
used most of the funds to make
unsecured loans to other members of the
FIC Group, the proceeds of which were
used at least in part to pay salaries and
other overhead expenses of the FIC
Group.8

7
8

Id. at Decision § 62 (b) (iv).
Pltf’s Opp & CM Ex 1, Judgment, p.1 § 2.

21a
On March 16, 2015, the Commission issued the
Decision which included disgorgement orders against
the following parties in the following amounts:
a. MICHAEL
PATRICK
LATHIGEE,
EARLE DOUGLAS PASQUILL, FIC
REAL STATE PROJECTS LTD., jointly
and severally, $9,800,000
b. MICHAEL
PATRICK
LATHIGEE,
EARLE DOUGLAS PASQUILL, FIC
FORECLOSURE FUND LTD., jointly
and severally, $9,900,000
c. MICHAEL
PATRICK
LATHIGEE,
EARLE DOUGLAS PASQUILL, WBIC
CANADA LTD., jointly and severally,
$2,000,000
On April 15,2015, the Decision was registered
in the Vancouver Registry of the British Columbia
Supreme Court, pursuant to section 163 of the BC
Securities Act as a judgment of that Court, under
registry file no. L-150117.9
The amount of the Judgment ordered to be
payable by Michael Patrick Lathigee, jointly and
severally
with
other
defendants,
excluding
administrative penalties, is $21,700,000 CAD.10 That
9

Pltf’s Opp & CM Ex 1, Judgment.
Id. at p.9 §§ 43, 46, and 49, and p.13 § 62 (d).

10

22a
amount of the Judgment was granted for
disgorgement of funds fraudulently obtained from
investors, pursuant to section 161(1)(g) of the BC
Securities Act.11 Specifically the tribunal stated:
“We find we have the authority to order
disgorgement against the individual
respondents in this case, up to $21.7
million, the full amount obtained by
fraud.”12
“The amounts obtained from investors
need not be traced to them specifically
and we find that $21.7 million was
obtained, directly or indirectly, as a
result of their individual contraventions
of the Act.”13
“Each
respondent's
misconduct
contributed to the raising of the $21.7
million fraudulently. We find that it is in
the public interest to order the
respondents to pay the full amount
obtained as a result of their fraud.”14
Prior to the proceedings which led to the
Judgment, Defendant was served with a Notice of
Hearing, dated March 1, 2012, which set forth the
See id. at p.7 § 34-37.
Id. at p.9 § 43.
13 Id. at p.9 § 46.
14 Id. at p.9 § 49.
11
12

23a
allegations and gave a date, time, and location for a
hearing.15 Defendant's counsel, H. Roderick Anderson
of Harper Grey LLP, accepted service of the notice on
March 8, 2012, and then appeared for all respondents
at the March 20, 2012 hearing.16 Defendant continued
to be represented by such counsel throughout the
proceedings of the case.17 In fact Defendant was
afforded at least six days of trial wherein his counsel
was able to call and cross-examine witnesses, and
present evidence.18 There is no question regarding
personal jurisdiction over Defendant, as Defendant
was a resident of British Columbia at all material
times during the proceedings.19

Plft’s Opp & CM Ex 2, Notice of Hearing,
BCSC_000054-000067.
16 Plft’s Opp & CM Ex 3, Transcript of March 20, 2012
Hearing, at 2:8-12.
17 See Plft’s Opp & CM Ex 4, Transcript of April 11,
2012 Hearing, at 1:25-27; Ex 5, Transcript of
September 16, 2013 Proceedings, at 0:5-8; Ex 6,
Transcript of September 17, 2013 Proceedings, at
1:15-20; Ex 7, Transcript of September 18, 2013
Proceedings; Ex 8, Transcript of September 19, 2013
Proceedings; Ex 9, Transcript of September 20, 2013
Proceedings; Ex 10, Transcript of September 21, 2013
Proceedings; Ex 11, Transcript of September 23, 2013
Proceedings; Ex 12, Transcript of September 24, 2013
Proceedings.
18 Id.
19 See Plft’s Opp & CM Declaration of Plaintiff § 9.
15

24a
Ultimately Defendant was found liable for
fraud, and the findings on liability were set forth by
the BCSC on July 8, 2014.20 Another Notice of
Hearing was served on Defendant on October 16,
2014, giving a date and time for hearing on
sanctions.21 A hearing on sanctions was held on
February 13, 2015, which was again attended by
Defendant’s counsel.22 The BCSC’s decision on
sanctions was set forth on March 16, 2015, wherein
disgorgement was ordered against Defendant.23
Defendant was granted leave to appeal the
decisions of the BCSC to the Court of Appeal for
British Columbia, with the Court of Appeal, after
hearing submission of counsel for Defendant,
unanimously dismissing the appeal by order
pronounced May 31, 2017, as a result of which the
Judgment, including the disgorgement order, remains
in full force and effect.24
As set forth in the Decision, given that the
Defendant is “permanently prohibited” from engaging
in investment activities in British Columbia, and
Pltf’s Opp & CM Ex 13, Panel Findings on
Liability, BCSC_1512-1577.
21 Pltf’s Opp & CM Ex 14, Notice of Hearing dated
October 16, 2014, BCSC_001692.
22 Plft’s Opp & CM Ex 1-5, Transcript of February
13, 2015 Hearing.
23 Pltf’s Opp & CM Ex 1, Judgment
24 Pltf’s Opp & CM Ex 1-6, Appellate Court Decision,
BCSC_001996-002047, at BCSC_002047 § 167.
20

25a
such other Canadian jurisdictions in which are a
reciprocal may have been made, he instead has based
his operations in Nevada.25 Defendant has been
involved in operations of at least 19 entities in
Nevada, the latest being “LVIC BLOCKCHAIN AND
CRYPTOCURRENCY FUND LLC.”26
B.

Canadian Disgorgement Law

In regard to enforcement of securities law,
whereas the U.S. has the federal Securities Exchange
Commission (the “SEC”), Canada has thirteen such
organizations, one for each province and territory of
Canada. The BCSC is the senior provincial securities
regulator for the province of British Columbia.
The statute under which the Judgment was
granted provides, in s. 161(1)(g), for the judgment
debtor to “pay to the commission any amount
obtained, or payment or loss avoided, directly or
indirectly, as a result of the failure to comply or the
contravention.”27 If the Commission recovers money
pursuant to a judgment under 161(l)(g), it must give
notice, and persons who have been harmed by the
fraud can submit an application to have such funds
distributed to them.28 Pursuant to section 15.1 of the
See Pltf’s Opp & CM Ex 1, Judgment § 62 (b).
Pltf’s Opp & CM Ex 14, Lathigee Corporate
Vehicles
27 Plft’s Opp & CM Ex 19, Canada Securities Act
[RSBC 1196] Chapter 418, Part 18, § 161(1)(g).
28 Id. at Part 3, § 15.1.
25
26

26a
BC Securities Act, and Securities Regulation 196-97
enacted under that statute, it is mandatory that the
Commission distribute disgorgement funds to proper
claimants, and it is therefore the Commission’s strict
mandate to do so.29 This is illustrated by the fact that
the Commission advertises on its website, under a
section entitled “Returning Funds to Investors,” the
cases which have received funds pursuant to a
judgment under section 16l(1)(g), and provides
guidance to victims on how they can lay claim to such
funds.30 In other words, disgorgement orders made
under 161(1)(g) of the BC Securities Act are not fines
or penalties, but are orders for the funds to be
disgorged from the judgment-debtor for any amounts
obtained, directly or indirectly, as a result of the
judgment-debtor's misconduct, to then by the
Commission to repay the individuals harmed by the
judgment-debtor’s misconduct.
Further, any remaining funds, after payment
of the claims of investors, are to be used by the BCSC
for investor education, and not taken in as general
revenue or used for operating expenses.
The Commission must follow the claims
process set forth by law to distribute the
Id. at Part 3, § 15.1; see Pltf’s Opp & CM
Declaration of Plaintiff § 6; Pltf’s Opp & CM Ex 20,
Securities Regulation, B.C. Reg. 196/97, Ministerial
Regulation M244/97, Part 3, § 7.4 (6).
30 Pltf’s Opp & CM Ex 21, BCSC Website, “Returning
Funds to Investors,” accessed August 30, 2018.
29

27a
disgorgement funds to proper claimants.31 As such,
these funds are compensatory in nature. Penalties
and fines were dealt with separately by the orders
made by the Commission’s panel. Defendant has an
additional judgment against him in the amount of $15
Million CAD for administrative penalties.32 These
fines and penalties are set forth separately from the
portion of the Judgment for disgorgement, for which
the Commission seeks recognition before this Court.
Plaintiff’s expert has stated unequivocally that
disgorgement is a remedy, and not a penalty.33
Canadian case law, and particularly case law in
British Columbia, holds that disgorgement is not a
penalty.34 In United States (Securities Exchange
Commission) v. Peever, the British Columbia Court
recognized a US SEC disgorgement order, finding
that evidence of the SEC’s policy to distribute
proceeds of the judgment to injured investors, even
when not strictly required to do so, was enough to
recognize the judgment and not deem it a penalty for
purposes of recognition.35

Pltf’s Opp & CM Ex 19, Canada Securities Act
[RSBC 1996] Chapter 418, Part 18, § 161 (1) (g).
32 Pltf’s Opp & CM Ex 1, Judgment, §§ 18 (b), 62 (b)
(iv-v (erroneously labeled iv)).
33 Pltf’s Opp & CM Ex 30, Plaintiff’s Expert’s Report
p. 3-4.
34 Pltf’s Opp & CM Ex 22, US (SEC) v. Peever, 2013
BCSC 1090, §§ 27-29.
35 Id.
31

28a
CONCLUSIONS OF LAW
A.

Motion for Summary Judgment
Standard.

The primary purpose of a summary judgment
procedure is to secure a “just, speedy, and inexpensive
determination of any action.”36 Although summary
judgment may not be used to deprive litigants of trials
on the merits where material factual doubts exist, it
enables the trial court to “avoid a needless trial when
an appropriate showing is made in advance that there
is no genuine issue of fact to be tried.”37 “Summary
judgment is appropriate if, when viewed in the light
most favorable to the nonmoving party, the record
reveals there are no genuine issues of material fact
and the moving party is entitled to judgment as a
matter of law.”38
Parties resisting summary judgment cannot
stand on their pleadings once the movant has
submitted affidavits or other similar materials.39
Though inferences are to be drawn in favor of the nonmoving party, an opponent to summary judgment
Albatross Shipping Corp. v. Stewart, 326 F. 2d 208,
211 (5th Cir. 1964); accord McDonald v. D.P.
Alexander & Las Vegas Boulevard, LLC, 123 P.3d
748, 750 (Nev. 2005).
37 Id.
38 NRCP 56 (c); DTJ Design, Inc. v. First Republic
Bank, 318 P.3d 709, 710 (Nev. 2014).
39 NRCP 56 (e).
36

29a
must show that he can produce evidence at trial to
support his claim.40 The Nevada Supreme Court has
rejected the “slightest doubt” standard, under which
any dispute as to the relevant facts defeats summary
judgment.41 A party resisting summary judgment “is
not entitled to build a case on the gossamer threads of
whimsy, speculation, and conjecture.”42 Rather, the
non-moving party must demonstrate specific facts as
opposed to general allegations and conclusions.43
Indeed, an opposing party "is not entitled to have [a]
motion for summary judgment denied on the mere
hope that at trial he will be able to discredit movant's
evidence; he must at the hearing be able to point out
to the court something indicating the existence of a
triable issue of fact.”44
B.

British Columbia Disgorgement
Judgments Must be Recognized
Pursuant to NRS 17.700-17.820

Van Cleave v. Kietz-Mill Minit Mart, 633 P.2d 1220,
1222 (Nev. 1981).
41 Wood v. Safeway, 121 P.3d at 1031.
42 Collins v. Union Fed. Savings & Loan, 622 P.2d
610, 621 (Nev. 1983).
43 LaMantia v. Redisi, 38 P.3d 877, 879 (Nev. 2002);
Wayment v. Holmes, 912 P.2d 816, 819 (Nev. 1996).
44 Hickman v. Meadow Wood Reno, 617 P.2d 871, 872
(Nev. 1980); see also Aldabe v. Adams, 402 P.2d 34, 37
(Nev. 1965) (“The word ‘genuine’ has moral overtones;
it does not mean a fabricated issue.”); Elizabeth E. v.
ADT Sec. Sys. W., 839 P.2d 1308, 1310 (Nev. 1992).
40

30a
The Judgment in issue was pronounced by the
BCSC, and recognized as a judgment of the British
Columbia Supreme Court and, subsequently upheld
on appeal. The Judgment is, in all respects, a foreigncountry judgment, being a judgment of one of the
superior courts of Canada.
A Nevada court “shall recognize a foreigncountry judgment,” to which NRS 17.700 to 17.820
apply, except as provided for under NRS 17.750
sections 2 and 3.45 NRS 17.740 sets forth the
applicability of NRS 17.700 to 17.820. It states that
such statutes apply to the extent that the judgment
“(a) Grants or denies recovery of a sum of money; and
(b) Under the law of the foreign country where
rendered, is final, conclusive and enforceable.”46
Further, it provides that such statutes do not apply to
the extent that the judgment is “(a) A judgment for
taxes; (b) A fine or other penalty; or (c) A judgment for
divorce, support or maintenance or other judgment
rendered in connection with domestic relations.”47
Defendant admits in its responses to Plaintiff’s
Requests for Admission numbers 1-4, that the
Judgment, against Defendant is final, conclusive, and
enforceable under the laws of Canada, that the time
for appeal has expired, that no payments have been

NRS 17.750 (1).
NRS 17.740 (1).
47 NRS 17.740 (2).
45
46

31a
made, and that the Judgment is not for taxes or
domestic relations.
In addition to Defendant's admissions, the
Commission has clearly proven that the Judgment
grants the recovery of a sum of money, and that under
the laws of British Columbia specifically, and Canada
generally, the Judgment is final, conclusive, and
enforceable.48 The certificate of the British Columbia
Supreme Court, exemplifying the Judgment, states
that:
“The Decision was entered
Judgment on April 1, 2015.”49

as

a

“The Time for Appeal has expired, and no
appeal is pending under s. 167 of the
Securities Act.”50
“With no payments being made, and the
full amount remaining due of the
Judgment, as noted above.”51

See Pltf’s Opp & CM Ex 1, Judgment.
Pltf’s Opp & CM Ex 1, Judgment, § 3.
50 Id. at § 4.
51 Id. at § 6.
48
49

32a
Additionally, the Judgment is not a judgment
for taxes or domestic relations as acknowledged by
Defendant’s First Amended Answer.52
a.

Defendant Waived or Withdrew
all of His Affirmative Defenses to
Recognition of Foreign Country
Judgment under NRS 17.70017.820, Except for the Argument
that the Judgment is a Penalty

The only grounds for denying recognition of a
foreign-country judgment to which the Recognition of
Foreign-Country Money Judgments act is applicable
are found in NRS 17.750(2) and (3):
“2. A court of this State may not
recognize a foreign-country judgment if:
(a) The judgment was rendered under a
judicial system that does not provide impartial
tribunals or procedures compatible with the
requirements of due process of law;
(b) The foreign court did not have
personal jurisdiction over the defendant; or
(c) The foreign court did not have
jurisdiction over he subject matter.”

Pltf’s Opp & CM Ex 18, Defendant’s First
Amended Answer § 17.
52

33a
“3. A court of this State need not
recognize a foreign-country judgment if:
(a) The defendant in the proceeding in
the foreign court did not receive notice of the
proceeding in sufficient time to enable the
defendant to defend;
(b) The judgment was obtained by fraud
that deprived the losing party of an adequate
opportunity to present its case;
(c) The judgment or the cause of action
on which the judgment is based is repugnant to
the public policy of this State or of the United
States;
(d) The judgment conflicts with another
final and conclusive judgment;
(e) The proceeding in the foreign court
was contrary to an agreement between the
parties under which the dispute in question
was to be determined otherwise than by
proceedings in that foreign court;
(f) In the case of jurisdiction based only
on personal service, the foreign court was a
seriously inconvenient forum for the trial of the
action;
(g) The judgment was rendered in
circumstances that raise substantial doubt

34a
about the integrity of the rendering court with
respect to the judgment; or
(h) The specific proceeding in the foreign
court leading to the judgment was not
compatible with the requirements of due
process of law.”
“4. A party resisting recognition of a
foreign-country judgment has the burden of
establishing that a ground for nonrecognition
stated in subsection 2 or 3 exists.”
Judging
from
Defendant’s
affirmative
defenses, Defendant previously rested its defenses on
§§ 2(a), 3(g) and 3(h). Defendant, however, has waived
or withdrawn each of these defenses. In response to
Plaintiff’s Request for Admission No. 11, Defendant
states “Defendant hereby withdraws his lack of due
process claim other than as may be affected by
defendant's defense that the Disgorgement Judgment
is a penalty. . . .”53 Defendant further admits that he
was represented by counsel in the proceedings
against him, that multiple hearings were held in the
proceedings against him, and that he received notice
of those hearings.54 Defendant further expressly
withdraws any claim that the proceedings were
inherently biased, that the judgment was rendered in
See Pltf’s Opp & CM Ex 28, Def’s Rsps to Pltf’s
RFAs, Response No. 11.
54 See Pltf’s Opp & CM Ex 28, Def’s Rsps to Pltf’s
RFAs, Responses No. 12-14.
53

35a
circumstances raising doubts about the integrity of
the BCSC, that the proceedings were not compatible
with US due process, and that the BCSC delayed this
action.55
Through its discovery responses, Defendant
has waived, or withdrawn, its first, third, fourth, and
fifth affirmative defenses. Defendant even waived his
second affirmative defense through his Motion for
Summary Judgment, which states, “Defendant
Lathigee asserts but a single defense that is common
to both the NUF-CMJRA and to comity, which is that
the Disgorgement Order is in the nature of a fine or
penalty.”56 This leaves only one affirmative defense,
that the Judgment “is clearly denoted as a ‘sanction’
and is otherwise a fine and/or penalty that is not
subject to recognition or to comity.”57
b.

Plaintiff’s Judgment is not a
Penalty

The Restatement (Second) of Conflict of Laws
states, “A valid judgment rendered in a foreign nation
after a fair trial in a contested proceeding will be
recognized in the United States so far as the
immediate parties and the underlying cause of action
are concerned.” Plaintiff has a valid disgorgement
See Pltf’s Opp & CM Ex 29, Def’s Rsps to Pltf’s
ROGs, Responses No. 2-4, & 6.
56 Def’s MSJ, Memorandum 1:21-23.
57 Pltf’s Opp & CM Ex 18, Def’s Amended Answer, p.
3-4.
55

36a
judgment rendered by the courts of British Columbia
Canada after a fair trial in a contested proceeding.
The US Supreme Court, in Kokesh v. S.E.C.,
adopted the position of the Restatement (Third) of
Restitution and Unjust Enrichment § 51, Comment a,
p. 204 (2010), by holding that “disgorgement is a form
of ‘[r]estitution measured by the defendant’s wrongful
gain.”58 The Restatement (Fourth) of Foreign
Relations Law of the United States makes clear that
“A judgment in favor of a foreign state awarding
restitution for the benefit of private persons is not
penal. . . .” As this is a case of first impression in
Nevada on this subject matter, and is believed to be
so also in the United States, this Court adopts the law
of Section 489 cmt. 4 of the Restatement (Fourth) of
Foreign Relations Law of the United States as the law
of Nevada, and holds that disgorgement judgments
are restitutionary under US law and Kokesh, and are
not penal for purposes of recognition of foreign
judgments.
In particular this Court finds that the British
Columbia judgment sought to be recognized by this
Court is not penal, but is a form of restitution, as the
funds collected under British Columbia disgorgement
judgments are mandated by law to become subject to
a claims process in which the judgment funds are
used to restore the losses of victims affected by the
fraud on which the judgment is based. The statute
under which the judgment was granted provides for
58

Kokesh v. S.E.C., 137 S. Ct. 1635, 1640 (2017).

37a
the judgment debtor to “pay to the commission any
amount obtained, or payment or loss avoided, directly
or indirectly, as a result of the failure to comply or the
contravention.”59 If the commission receives money
pursuant to a judgment under 161(1)(g), it must give
notice, and persons who have been harmed by the
fraud can submit an application to have such funds
distributed to them.60 Pursuant to section 15.1 of the
BC Securities Act, and Securities Regulation 196-97,
it is mandatory that the BCSC distribute
disgorgement funds to proper claimants, and it is
therefore the BCSC’s strict policy to do so.61 Whatever
the “purpose” of the law, clearly the effect is to
compensate victims—something the law mandates by
its terms.
In this particular case, Plaintiff’s judgment is
dollar for dollar a disgorgement of amounts actually
held by British Columbia’s securities regulator to
have been fraudulently taken from individual
investors. The effect of the disgorgement judgment
then is to take back those funds actually taken from
individual investors, and to grant restitution to
victims through the legally-mandated claims process.

Plft’s Opp & CM Ex 2, Canada Securities Act [RSBC
1996] Chapter 418, Part 18, § 161(1)(g).
60 Id. at Part 3, § 15.1.
61 Id. at Part 3, § 15.1; See Pltf’s Opp & CM
Declaration of Plaintiff § 6; Pltf’s Opp & CM Ex 3,
Securities Regulation, B.C. Reg. 196/97, Ministerial
Regulation M244/97, Part § 7.4(6)
59

38a
Kokesh
While this Court has considered the Kokesh
court’s defining disgorgement as penal for the
purposes of a US statute of limitations period, this
party of Kokesh applies only to disgorgement as the
Kokesh court specifically states, “We hold that SEC
disgorgement constitutes a penalty.”62 While
Kokesh is persuasive coming from the US Supreme
Court, this Court does not believe Kokesh is binding
or even on point for this particular matter, because
the Kokesh court limited its application to SEC
disgorgement, and the case was strictly in regard to a
statute of limitations matter. While in Kokesh the
statute of limitations matter was a black and white
test of whether the cause of action would be held to a
certain time frame requirement, the issue of a
judgment being a penalty for purposes of recognizing
foreign country judgments is a very different analysis,
wherein this Court recognizes that “Enforcement of a
judgment affording a private remedy is not barred . .
. because it is joined with, or awarded in the same
proceedings as, a judgment the enforcement of which
would be barred. . .” such as a penalty.63
In other words, the Kokesh court effectively
held that because the judgment in that case was
partially penal, it was held to a particular statute of
Kokesh v. S.E.C., 137 S. Ct. 1635, 1642 (2017)
(emphasis added).
63 Restatement (Fourth) of Foreign Relations Law of
the United States § 489 cmt. d.
62

39a
limitations, but in the analysis of recognizing foreign
judgments, a partially penal purpose is not
dispositive, as the penal portion of a judgment can be
separated from the restitution portion of the
judgment, and the restitution portion given full
recognition. This Court holds that the entire $21.7
Million judgment sought to be recognized in this case
is restitution under US and Nevada law, and should
be recognized in its entirety.
Huntington
This Court has also considered the decision in
Huntington v. Attrill.64 Huntington did not involve a
disgorgement judgment, or even a foreign country
judgment, but it instead determined that the Full
Faith and Credit Clause does not apply to penal
judgments.65 So it did not say that courts could not
recognize penal judgments, but instead decided only
the constitutional question of whether courts were
required to recognize them under the Full Faith and
Credit Clause.66 While Huntington does not apply to
foreign country judgments, the court developed a test
for whether a sister-state judgment is penal,
determining that the penal status of such a judgment
"depends upon the question whether its purpose is to
punish an offense against the public justice of the

Huntington v. Attrill, 146 US 657, 673-674 (1892).
City of Oakland v. Desert Outdoor Advertising, Inc., 127
Nev. 533, 538 (2011)
66 Id.
64
65

40a
state, or to afford a private remedy to a person injured
by the wrongful act.”67
While Huntington’s test is not binding on this
case, because it does not apply to foreign country
judgments, the test still leads to a conclusion that a
British Columbia disgorgement judgment is not a
penalty. As discussed at length herein and in
Plaintiff’s Countermotion, such a judgment’s purpose
is not to punish an offense against the public justice
of the state, but to disgorge the Defendant of his illgotten gains, and then those gains are mandatorily
returned to the claimants who are Defendant’s
victims.68
The British Columbia disgorgement judgment
does not perfectly fall into the Huntington test, but it
is much more similar, for the purpose of this analysis,
to a private remedy than a punishment. The funds
from disgorgement orders are strictly required to
compensate victims and not go into the general
operating revenue.69 This is different from
administrative penalties which don't compensate
victims.70
The more appropriate test to follow in this case
is that which is set forth by the Restatement (Fourth)
Huntington v. Attrill, 146 US 657, 673-674 (1892).
See Pltf’s Reply Declaration of Plaintiff § 4.
69 See Pltf’s Reply Declaration of Plaintiff § 5.
70 City of Oakland v. Desert Outdoor Advertising,
Inc., 127 Nev. 533, 534 (2011).
67
68

41a
of Foreign Relations of the United States, which
states that when the judgment (1) is in favor of a
foreign state, and (2) results in restitution for the
benefit of private persons, then it is not a penalty.71
Oakland
This Court has also considered the decision in
City of Oakland v. Desert Outdoor Advertising, Inc.72
The Oakland case focused on a judgment with a
strictly public purpose where no private injury was
had, and no right to compensation for individuals
existed. Indeed, the judgment in the Oakland case
came from a municipal code violation for the erection
of a billboard determined to be a public nuisance.73
Plaintiff’s judgment is not for some public nuisance,
but for the disgorgement of stolen funds and profits,
and a return of such funds to Defendant's victims.
Plaintiff’s judgment is not the result of some
municipal code prescribing penalties and fines, like a
traffic ticket or zoning violation, but is a judgment
based on important securities regulations which
provide disgorgement which results in those funds
being available to victims of the fraud.74

Restatement (Fourth) of Foreign Relations Law of
the United States § 489 n. 4; see also § 489(b).
72 City of Oakland v. Desert Outdoor Advertising,
Inc., 127 Nev. 533, 534 (2011).
73 City of Oakland v. Desert Outdoor Advertising,
Inc., 127 Nev. 533, 534 (2011).
74 See Pltf’s Reply Declaration of Plaintiff § 4.
71

42a
C.

British Columbia Disgorgement
Judgments May be Recognized
Pursuant to Principles of Comity

NRS 17.820 states that “NRS 17.700 to 17.820,
inclusive, do not prevent the recognition under
principles of comity or otherwise of a foreign-country
judgment not within the scope of NRS 17.700 to
17.820, inclusive.” Under that authority, this Court
finds good cause for recognizing Plaintiff’s judgment
under both NRS 17.700-17.80, and comity.
A Court may grant comity in recognizing a
foreign country judgment even if the judgment is a
tax, fine or penalty, as nonrecognition is such cases is
permitted but not required.75
“‘[C]omity is a principle whereby the
courts of one jurisdiction may give effect
to the laws and judicial decisions of
another jurisdiction out of deference and
respect.’”76
“A court applying the principle of comity
should consider the ‘duties, obligations,
rights, and convenience of its own
Restatement (Third) of Foreign Relations Law of
the United States, § 483 cmt a (“Nonrecognition not
required but permitted”).
76 In re Chao-Te, 2015 WL 3489560 (Nev., May 29,
2015) (citing Mianecki v. Second Judicial Dist.
Court, 99 Nev. 93, 98, 658 P.2d 422, 424-25 (1983)).
75

43a
citizens and of persons who are within
the protection of its jurisdiction.’”77
Comity is a rule of practice, convenience, and
expediency, rather than rule of law, that courts have
embraced to promote cooperation and reciprocity with
foreign lands.78 Principles of Comity are embraced by
both Canada and the United States, in each of their
countries endeavor to promote cooperation and offer
reciprocity between two similar legal systems.
While Courts should consider whether due
process was given in their decision to grant comity,
such requires only that the basic requisites for due
process are necessary—including notice and a
hearing.79 The seminal comity case, Hilton v. Guyot,
declares:
“[Comity] contributes so largely to
promote justice between individuals, and
to produce a friendly intercourse
between the sovereignties to which they
belong, that courts of justice have

Id.
Mujica v. AirScan Inc., 771 F.3d 580, 598 (9th Cir.
2014) (citing Pravin Banker Assocs., Ltd. v. Banco
Popular Del Peru, 109 F.3d 850, 854 (2d Cir. 1997)
(quoting Somportex Ltd. Phila. Chewing Gum Corp.,
453 F.2d 435, 440 (3d Cir. 1971)).
79 Soc’y of Lloyd’s v. Hudson, 276 F. Supp. 2d 1110,
1112 (D. Nev. 2003).
77
78

44a
continually acted upon it as a part of the
voluntary law of nations.”80
“Where there has been opportunity for a
full and fair trial before a foreign court of
competent jurisdiction, conduction the
trial on regular proceedings, after due
citation of voluntary appearance of the
defendant, and under a system of
jurisprudence likely to secure an
impartial administration of justice
between the citizens of that country and
those of other countries, and there is
nothing to show either prejudice in the
court, or in the system of laws under
which it was sitting, or fraud in
procuring the judgment, or any other
special reason why the comity of the
United States should not allow it full
effect, the merits of the case should not,
in an action brought in this respective
Provinces and States, as the two close
country on the judgment, be tried afresh,
as on a new trial or an appeal, upon the
mere assertion of a party that the
judgment was erroneous in law or in
fact.”81
Canada and the U.S. have a long history
together as two nations which sprung up in close
80
81

Hilton v. Guyot, 159 U.S. 113, 165 (1895).
Id. at 123.

45a
proximity at similar times. The two nations’ legal
systems are largely similar, as they both arose from
British and European jurisprudence.
The SEC and securities commissions of each of
the Provinces, including the BCSC, often work
together, as the nature of the proximity and relations
of the two countries makes it easy for fraud to move
between the countries.82 The U.S. and many provinces
of Canada are actually parties to a Memorandum of
Understanding, to which the SEC and BCSC are
signatories, which provides that the “Authorities will
provide the fullest mutual assistance,” “to facilitate
the performance of securities market oversight
functions and the conduct of investigations, litigation
or prosecution. . . .”83 Canadian courts, including the
British Columbia Courts, have upheld SEC
disgorgement judgments on multiple occasions.84 One
of the more recent cases, United States (Securities
Exchange Commission) v. Peever, recognized, and
permitted enforcement of, an SEC disgorgement
See S.E.C. v. Lines, 2009 WL 2431976, p.1
(S.D.N.Y.).
83 Pltf’s Opp & CM Ex 24, Memorandum of
Understanding between SEC and BCSC.
84 See Pltf’s Opp & CM Ex 22, United States
(Securities Exchange Commission v. Peever, 2013
BCSC 1090 (CanLII); Ex 25, United States (Securities
and Exchange Commission) v. Shull, (1999) B.C.J.
No. 1823 (S.C.); and Pltf’s Opp & CM Ex 26, United
States (Securities and Exchange Commission) v.
Cosby, 2000 BCSC 338.
82

46a
judgment, even though the defendant alleged that its
purpose was partially penal in nature.85 The same
Court also gave effect to an SEC disgorgement
judgment in United States (Securities and Exchange
Commission) v. Cosby, holding that “as it is only the
disgorgement aspect of the foreign judgment that the
plaintiff seeks to enforce, the judgment is not a
foreign penal claim and it is enforceable or actionable
in this jurisdiction.”86 That Court held again, in
United States of America v. Shull, that the
disgorgement order sought to be enforced by the SEC
in Canada was “neither a penal sanction nor a
taxation measure.”87
It is critically important that we maintain our
good relations and ties with Canada by giving effect
to its Province's judgments, as it gives effect to ours,
especially those meant to provide some restoration to
the victims of securities fraud. “International law is
founded upon mutuality and reciprocity.”88 If we want
Canada’s Provinces to continue to recognize our

Pltf’s Opp & CM Ex 22, United States (Securities
Exchange Commission v. Peever, 2013 BCSC 1090
(CanLII).
86 Pltf’s Opp & CM Ex 26, United States (Securities
and Exchange Commission) v. Cosby, 2000 BCSC 338.
87 Pltf’s Opp & CM Ex 25, United States (Securities
Exchange Commission) v. Shull, (1999) B.C.J. No.
1823 (S.C.).
88 Hilton v. Guyot, 159 U.S. 113, 228 (1895).
85

47a
securities judgments, then we need to recognize
theirs.
If we fail to uphold Canada’s Provinces’
securities judgment, and more particularly,
disgorgement judgments, then they may very likely
refuse to uphold ours, and in that situation the
citizens of both countries are worse off. U.S. and
Nevada citizens who are victimized by securities
fraud would be less likely to receive any recompense.
ORDER
Based on the foregoing; the Court finding that
it has jurisdiction over the subject matter and the
parties hereto, and being otherwise fully advised in
the premises and good cause appearing; hereby enters
this judgment.
IT IS HEREBY ORDERED, ADJUDGED
AND DECREED that PLAINTIFF’S Countermotion
for Summary Judgment is GRANTED.
IT IS FURTHER HEREBY ORDERED,
ADJUDGED
AND
DECREED
that
DEFENDANT’S Motion for Summary Judgment is
DENIED.
IT IS FURTHER HEREBY ORDERED,
ADJUDGED AND DECREED that Plaintiff’s
Judgment in the amount of $21.7 Million CAD, is
hereby recognized and entered, and is fully
enforceable in the State of Nevada.

48a
IT IS ORDERED AND ADJUDGED that the
plaintiff, the BRITISH COLUMBIA SECURITIES
COMMISSION, recover of the defendant MICHAEL
PATRICK LATHIGEE the sum of $21,700,000.00
CAD plus interest on that sum at the statutory rate
pursuant to NRS 17.130 or, at the option of the
judgment debtor, the number of United States dollars
which will purchase the Canadian Dollar with
interest due, at a bank-offered spot rate at or near the
close of business on the banking day next before the
day of payment, together with assessed costs of
$1,173.39 United States dollars.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that trial deadline currently on
calendar shall be vacated.
DATED this 14th day of May, 2019.
Adriana Escobar
DISTRICT COURT JUDGE

49a
APPENDIX C

In the Supreme Court of British Columbia
______________________
No. L-150117
______________________
BRITISH COLUMBIA SECURITIES
COMMISSION,
Petitioner,
v.
MICHAEL PATRICK LATHIGEE; EARLE
DOUGLAS PASQUILL; FIC REAL ESTATE
PROJECTS LTD.; FIC FORECLOSURE FUND
LTD., AND WBIC CANADA LTD.,
Respondents.
______________________
DECISION
______________________
FILED: April 1, 2015
______________________
Before Commissioners: AUDREY T. HO and
JUDITH DOWNES
______________________

50a
Michael Patrick Lathigee and Earle Douglas
Pasquill, FIC Real Estate Projects Ltd., FIC
Foreclosure Fund Ltd., WBIC Canada Ltd.
Securities Act, RSBC 1996, c. 418
Hearing
Panel

Audrey T. Ho Commissioner
Judith Downes Commissioner

Hearing Date

February 13, 2015

Date of Decision March 16, 2015
Appearing
Derek Chapman
For the Executive Director
H. Roderick Anderson For the Respondents
Owais Ahmed
Decision
I.

Introduction
¶ 1 This is the sanctions portion of a hearing
pursuant to sections 161(1) and 162 of the
Securities Act, RSBC, 1996, c.418. The Findings
on liability, made on July 8, 2014 (2014
BCSECCOM 264), are part of this decision.
Since the Findings, the panel chair, Vice Chair
Brent W. Aitken, retired and did not participate
in the sanctions hearing or any deliberations
regarding sanctions.

51a
¶ 2 The Findings panel found that:
a) all the respondents perpetrated a fraud,
contrary to section 57(b) of the Act, when
they raised $21.7 million from 698 investors
without disclosing to them the important
fact of FIC Group’s financial condition; and
b) Michael Patrick Lathigee, Earle Douglas
Pasquill and FIC Foreclosure Fund Ltd.
perpetrated a second fraud, contrary to
section 57(b), when they raised $9.9 million
from 331 investors in FIC Foreclosure for
the purpose of investing in foreclosure
properties and instead used most of the
funds to make unsecured loans to other FIC
Group companies.
II.

Position of the Parties
¶ 2 The executive director seeks:
a) permanent market prohibitions against the
respondents, under sections 161(1)(b), (c) and
(d) of the Act;
b) disgorgement orders against the respondents
under section 161(1)(g), for the amounts
obtained
by
them,
respectively,
in
contravention of the Act, as follows:
▪
▪

Lathigee - $21.7 million
Pasquill - $21.7 million

52a
▪
▪
▪

FIC Real Estate Projects Ltd. - $9.8
million
FIC Foreclosure - $9.9 million
WBIC Canada Ltd. - $2 million; and

c) administrative
penalties
against
the
respondents under section 162, in the same
amount as the section 161(1)(g) order sought
against each of them.
¶ 4 The respondents submitted that the appropriate
sanctions are as follows:
a) 10-year market prohibitions against the
respondents, under sections 161(1)(b) and (d),
subject to two carve-outs:
Lathigee and Pasquill may trade
through a registered dealer in their own
RRSP and cash accounts
▪ Lathigee and Pasquill may each act as a
director and officer of an issuer whose
shares are solely owned by him or by him
and his immediate family;
b) no disgorgement orders against any of the
respondents;
▪

c) administrative penalties against each of
Lathigee and Pasquill in the amount of
$500,000; and
d) no administrative penalties
corporate respondents.

against

the

53a
III.

Analysis
A. Factors
¶ 5

Orders under sections 161(1) and 162 are
protective and preventative, intended to be
exercised to prevent future harm. See Committee
for Equal Treatment of Asbestos Minority
Shareholders v. Ontario (Securities Commission)
2001 SCC 37.

¶ 6 In Re Eron Mortgage Corporation [2000] 7 BCSC
Weekly Summary 22, the Commission identified
factors relevant to sanction as follows (at page
24):
In making orders under sections 161 and
162 of the Act, the Commission must
consider what is in the public interest in the
context of its mandate to regulate trading in
securities. The circumstances of each case
are different, so it is not possible to produce
an exhaustive list of all of the factors that
the Commission considers in making orders
under sections161 and 162, but the following
are usually relevant:
• the seriousness of respondent’s
conduct,
• the harm suffered by investors as a
result of the respondent’s conduct,
• the damage done to the integrity of
the capital markets in British
Columbia by the respondent’s
conduct,

54a
•
•
•
•

•

•

•

•

the extent to which the respondent
was enriched,
factors
that
mitigate
the
respondent's conduct,
the respondent’s past conduct,
the risk to investors and the capital
markets posed by the respondent's
continued participation in the capital
markets of British Columbia,
the respondent's fitness to be a
registrant
or
to
bear
the
responsibilities associated with being
a director, or officer or adviser to
issuers,
the need to demonstrate the
consequences
of
inappropriate
conduct to those who enjoy the
benefits of access to the capital
markets,
the need to deter those who
participate in the capital markets
from engaging in inappropriate conduct, and
orders made by the Commission in
similar circumstances in the past.

B.
Application of the Factors
Seriousness of the conduct
¶ 7 The Commission has consistently held that fraud
is the most serious misconduct prohibited by the
Act. In Manna Trading Corp Ltd., 2009
BCSECCOM 595, the Commission, at paragraph

55a
18, said, “Nothing strikes more viciously at the
integrity of our capital markets than fraud.”
¶ 8 The magnitude of the fraud perpetrated in this
case is among the largest in British Columbia
history. The respondents raised $21.7 million
from 698 investors without telling them that the
FIC Group had a severe cash flow problem. A
relatively small number of potential events
could have triggered its insolvency in a very
short time frame. Three of the respondents led
FIC Foreclosure’s 331 investors to believe that
the $9.9 million raised from them would be
invested in foreclosure properties and soon.
Instead, FIC Foreclosure used most of the funds
to make unsecured loans to other FIC Group
companies.
Harm to investors; damages to capital markets
¶ 9 The Commission has consistently held that fraud
is the most serious misconduct prohibited by the
Act. In Manna Trading Corp Ltd., 2009
BCSECCOM 595, the Commission, at paragraph
18, said, “Nothing strikes more viciously at the
integrity of our capital markets than fraud.”
¶10 The harm to the reputation and integrity of our
capital markets is also clear.
Enrichment
¶ 11 The executive director and the respondents each
tendered evidence to establish (or refute) if, and
to what extent, Lathigee and Pasquill received

56a
any of the fraudulently raised funds for their
personal benefit.
¶ 12 The FIC Group was run, from a financial point
of view, as one entity. The evidence before us
indicates that the bulk of the $21.7 million was
used for the benefit of the FIC Group of
companies.
Mitigating or aggravating factors
¶ 13 There are no mitigating factors. There are no
aggravating factors beyond the ones cited below
under the heading “Past Conduct”.
¶ 14 Lathigee and Pasquill argued that their conduct
after 2008, the year in which the funds at issue
were raised, is a mitigating factor. They said
that they (and Pasquill in particular) have
worked to help the FIC Group recover assets
through various means including lawsuits
against third parties, kept the companies’ filings
in good standing, worked with the companies’
receiver, and communicated with investors to
keep them up to date on progress and answer all
their questions.
¶ 15 We do not see how Lathigee’s and Pasquill’s
conduct after the funds were raised, as described
in paragraph 14, lessens the gravity of their
fraudulent acts, and we do not consider it to be
a mitigating factor. In addition, we do not
consider their co-operation in the other
proceedings to be a mitigating factor in
considering sanctions in this proceeding. See:

57a
Rashida Samji et al 2015 BCSECCOM 29
(paragraph 16).
¶ 16 Lathigee and Pasquill also argued that the fact
that the fraud was not designed to enrich them
is a mitigating factor. We do not agree. If we had
found that the fraud was designed to enrich
them, that would be an aggravating factor. The
absence of an aggravating factor does not equate
to the presence of a mitigating factor.
Past conduct
¶ 17 Lathigee, Pasquill and WBIC have a history of
regulatory misconduct.
¶ 18 As more particularly described in paragraphs
14-16 of the Findings,
a) In December 2005, Commission staff issued
cease trade orders against three FIC Group
companies (WBIC, FIC Investments Ltd. and
China Dragon Fund Ltd.) for using forms of
offering memoranda that did not comply with
the requirements of the Act. Lathigee and
Pasquill were directors and officers of each
company at the time.
b) In June 2007, Lathigee, Pasquill, WBIC and
China Dragon entered into a settlement
agreement with the Commission and admitted
to certain securities law violations. Lathigee
agreed to pay a $60,000 fine and Pasquill
agreed to pay a $30,000 fine.

58a
¶ 19 In addition, on September 2, 2008 (after the fund
raising period in this case), the executive
director issued a further cease trade order
against WBIC. This order was related to
inadequate disclosure in WBIC’s offering
memoranda dated June 1, 2007 and February 1,
2008 regarding: risk factors related to the
investments, investments made by WBIC in
related companies, and material agreements
entered into by WBIC including loan
guarantees. Lathigee and Pasquill were
directors and officers of WBIC at the time.
Risk to investors and markets
¶ 20 For the reasons discussed below, we find the
respondents to be a serious ongoing risk to the
capital markets and permanent market bans are
warranted.
¶ 21 First, those who commit fraud represent the
most serious risk to our capital markets. Here,
the fraud is significant.
¶ 22 Second, WBIC and the individual respondents’
multiple past infractions show they do not
respect securities laws. They were not deterred
by orders and sanctions from prior infractions.
¶ 23 Third, Lathigee remained active in the capital
markets after his involvement in the FIC Group,
co-founding an investment club in Las Vegas
with a mandate that resembles the FIC Group’s
mandate. When talking about his background,

59a
he was not forthcoming about his regulatory
history.
¶ 24 The executive director submitted a video posted
on YouTube in April 2014. This was a year after
the issuance of the Notice of Hearing in this case
but before the liability hearing.
¶ 25 According to the video, entitled “Experts of
Southern Nevada,” which is in the format of an
interview of Lathigee:
a) Lathigee now lives in Las Vegas and is a cofounder and leader of an investment club called
the Las Vegas Investment Club;
b) The mandate of the club appears quite similar
to the mandate of the FIC Group;
c) Lathigee talked about the strategy of investing
in tax liens and tax deeds, and claimed a lot of
success in the past with investing in these liens
and deeds;
d) Lathigee claimed that he had previously built
the largest investment club in North America
that grew to $100 million in assets under
management; and
e) Lathigee talked about some of his past
successes and background but there was no
mention of his regulatory history in British
Columbia.

60a

Specific and general deterrence
¶ 26 The sanctions we impose must be sufficient to
ensure that the respondents and others will be
deterred from engaging in similar misconduct.
Previous orders
¶ 27 The executive director referred us to three
recent decisions of this Commission that dealt
with fraud: IAC – Independent Academies
Canada Inc. 2014 BCSECCOM 260, David
Michael Michaels et al 2014 BCSECCOM 457,
and Samji.
¶ 28 In IAC, the respondents raised $5.1 million from
investors without filing a prospectus. Of that
amount, $1.645 million was raised fraudulently.
The respondents did not tell investors that the
property to be developed with their money was
in foreclosure. The panel ordered permanent
market bans, an administrative penalty of $7
million against the individual respondents on a
joint and several basis, plus a section 161(1)(g)
order against all the respondents for the money
that was raised illegally.
¶ 29 In Michaels, the panel found that Michaels
convinced people to purchase $65 million of
securities through fraud, misrepresentation and
unregistered advising. Michaels received $5.8
million in commissions and fees from the

61a
scheme. The circumstances in Michaels are
different from the present case in that the
investments made by Michaels’ clients went into
investments in accordance with their intentions.
However, the panel found that the seriousness
of the misconduct was heightened by Michaels’
predatory behavior in targeting seniors. The
panel there ordered permanent market bans, an
administrative penalty of $17.5 million, plus a
section 161(1)(g) order for $5.8 million against
Michaels.
¶ 30 In Samji, the panel found that Samji operated a
$100 million Ponzi scheme and defrauded at
least 200 investors. The panel ordered
permanent market bans, an administrative
penalty of $33 million, plus a section 161(1)(g)
order of approximately $11 million representing
the difference between the monies deposited by
investors under the Ponzi scheme and the
monies paid out to them, against Samji and the
corporate respondents on a joint and several
basis.
C.
a)

Appropriate Orders
Market prohibitions

¶ 31 Fraud is the most serious misconduct prohibited
by the Act. Permanent market prohibitions are
common for those found to have committed
fraud.
¶ 32 For the reasons already stated, we conclude that
it is not in the public interest to allow the

62a
respondents to operate in the capital markets.
We find that a permanent market ban against
the respondents is necessary to protect the
markets and the investing public, subject to two
carve-outs:
I.

We are prepared to allow Lathigee and
Pasquill to trade for their own accounts
through a registered dealer. We do not
see any risk to the investing public by
doing so.

II.

We are also prepared to allow Lathigee
to act as a director and officer of one
private issuer whose securities are
owned solely by him or by him and his
immediate family. He is currently the
director and officer of such a company,
and we see no risk to the investing public
by allowing him to continue. We are not
granting this carve-out to Pasquill as he
indicated that he has no need for it.

b)
Orders under section 161(1)(g)
¶ 31 Section 161(1)(g) states that the Commission
may order:
“(g) if a person has not complied with this
Act, . . . that the person pay to the
commission any amount obtained, or
payment or loss avoided, directly or
indirectly, as a result of the failure to

63a
comply or the contravention;” (emphasis
added)
¶ 34 The respondents challenged our authority to
make a section 161(1)(g) order (sometimes
referred to as a “disgorgement order”) against
the individual respondents. They argued that,
for section 161(1)(g) to apply, the respondent
against whom the order is issued must have
obtained a payment or avoided a loss, directly or
indirectly, as a result of the contravention of the
Act. They said there is no evidence that Lathigee
and Pasquill obtained any payment or avoided
any loss as a result of their contraventions of the
Act.
¶ 35 The respondents argued that to order
disgorgement against a respondent who has not
obtained any money as a result of a
contravention would improperly punish the
respondent or, alternatively, wrongly duplicate
the purpose of an administrative penalty. They
relied on Manna Trading, which stated (in
paragraph 36) that the purpose behind section
161(1)(g) orders is to remove “the incentive of
profiting from illegal misconduct” and to return
money obtained by contravening the Act.¶ 36
According to the video, entitled “Experts of
Southern Nevada,” which is in the format of an
interview of Lathigee:
¶ 36 The executive director disagreed. He argued
that it is clear from a plain reading of section

64a
161(1)(g) that it is not limited to requiring
payment of the amount obtained by a
respondent. He cited Oriens Travel & Hotel
Management Ltd. 2014 BCSECCOM 91 and
Michaels.¶ 38 According to the video, entitled
“Experts of Southern Nevada,” which is in the
format of an interview of Lathigee:
¶ 37 The Commission in Oriens and Michaels held
that an order against a respondent for payment
of the full amount obtained as a result of his
contravention of the Act is possible without
having to establish that the amount obtained
through the contravention was obtained by that
respondent. We agree.
¶ 38 We do not read Manna Trading as supporting
the respondents’ interpretation of section
161(1)(g). The panel there found four individual
respondents to have perpetrated a fraud and
ordered each of them to pay to the Commission
under section 161(1)(g) the full amount obtained
by the fraud without regard to the finding that
they were personally enriched by different
amounts. That panel concluded it was not
necessary, in making orders under section
161(1)(g), to trace investor funds into the hands
of the respondents. It said (at paragraph 44) that
each respondent’s individual contraventions,
directly or indirectly, resulted in the investment
of US$16 million in the Manna Ponzi scheme
and ordered each of them to pay that amount
under section 161(1)(g), as it was “the amount

65a
obtained, directly or indirectly, as a result of
their individual contraventions of the Act.”
¶ 39 We also find instructive the decision of the
Ontario Securities Commission (OSC) in
Limelight Entertainment Inc. (2008) 31 O.S.C.B.
12030 (cited in Michaels).
¶ 40 The Ontario Securities Act contains provisions
that are identical in all relevant respects to
section 161(1)(g). In Limelight, the OSC stated,
in paragraph 49:
“We noted that paragraph 10 of
subsection 127(1) of the Act provides
that disgorgement can be ordered with
respect to “any amounts obtained” as a
result of non-compliance with the Act.
Thus, the legal question is not whether a
respondent “profited” from the illegal
activity but whether the respondent
“obtained amounts” as a result of that
activity. In our view, this distinction is
made in the Act to make clear that all
money illegally obtained from investors
can be ordered to be disgorged, not just
the “profit” made as a result of the
activity. … In our view, where there is a
breach of Ontario securities law that
involves the widespread and illegal
distribution of securities to members of
the public, it is appropriate that a
respondent disgorge all the funds that

66a
were obtained from investors as a result
of that illegal activity. …”
¶ 41 In Limelight, the OSC found two individual
respondents, Da Silva and Campbell, to be the
directing minds and principal shareholders of
Limelight, and to have committed illegal acts
both personally and through their control and
direction over Limelight and its salespersons.
The OSC ordered disgorgement jointly from
Limelight, Da Silva and Campbell of the entire
amount raised. In doing so, the OSC stated, in
paragraph 59:
“In our view, individuals should not be
protected
or
sheltered
from
administrative sanctions by the fact that
the illegal actions they orchestrated
were carried out through a corporation
which they directed and controlled. In
this case, Limelight, Da Silva and
Campbell acted in concert with a
common purpose in breaching key
provisions of the Act.”
¶ 42 We agree with the principles articulated and
approaches taken in the illegal distribution and
fraud cases canvassed above. They are even
more compelling in cases of fraud. We should not
read section 161(1)(g) narrowly to shelter
individuals from that sanction where the
amounts were obtained by the companies that
they directed and controlled.

67a
¶ 43 We find we have the authority to order
disgorgement
against
the
individual
respondents in this case, up to $21.7 million, the
full amount obtained by fraud.
¶ 44 We next considered whether we should exercise
our discretion to make section 161(1)(g) orders
against each respondent and in what amount.
¶ 45 With respect to the individual respondents, they
submitted that the panel should not make such
an order against them even if we have the
authority, because they were not personally
enriched and they only received reasonable
compensation from the FIC Group.
¶ 46 The principles articulated in the cited cases
apply equally to this case. Lathigee and
Pasquill, personally and with the corporate
respondents that they directed, committed fraud
on close to 700 investors. They were the
directing and controlling minds of the corporate
respondents. They should not be protected or
sheltered from sanctions by the fact that the
illegal actions they orchestrated were carried
out through corporate vehicles. The amounts
obtained from investors need not be traced to
them specifically and we find that $21.7 million
was obtained, directly or indirectly, as a result
of their individual contraventions of the Act.
¶ 47 With respect to the corporate respondents, they
obtained the amount raised by them respectively
as a result of their individual contraventions of

68a
the Act. But, they submitted that a section
161(1)(g) order should not be made against them
as they have no ability to pay, and such an order
may result in their entering into bankruptcy to
the prejudice of the investors.
¶ 48 A respondent’s ability to pay is not a relevant
consideration. Even if it were, the respondents
did not provide any evidence that the corporate
respondents would have the money to pay the
investors if we decline to make a section
161(1)(g) order.
¶ 49 Each respondent’s misconduct contributed to the
raising of the $21.7 million fraudulently. We find
that it is in the public interest to order the
respondents to pay the full amount obtained as
a result of their fraud. Accordingly, we order the
respondents to pay to the Commission, jointly
and severally, the respective amounts set out in
paragraph 62(d) below.
III.

Administrative Penalty
¶ 50 Under section 162 of the Act, where the
Commission has determined that a person has
contravened a provision of the Act, it “may order
the person to pay the commission an
administrative penalty of not more than $1
million for each contravention”.
¶ 51 The respondents first argued that the executive
director had only alleged, and the Findings
panel had only found, that the respondents
committed one act of fraud when they raised the

69a
$21.7 million and three respondents committed
a second act of fraud when they raised the $9.9
million. Therefore, the respondents argued that
this panel has no authority to order any penalty
under section 162 in excess of $2 million against
the three respondents who committed fraud
twice and $1 million against the remaining
respondents.
¶ 52 The executive director disagreed. He said the
notice of hearing alleged that the fraudulent
conduct involved 698 investors who invested
$21.7 million, and 331 investors who invested
the $9.9 million. Therefore, a separate fraud was
perpetrated with respect to each investor, which
means the respondents contravened section
57(b) a total of 1,029 times (698 with respect to
the FIC Group investors and 331 with respect to
the FIC Foreclosure investors).
¶ 53 We agree with the executive director. His
interpretation is consistent with the language in
the Findings. The Findings panel stated, “We
find that the respondents perpetrated a fraud on
those investors, contrary to section 57(b) of the
Act” [emphasis added], with respect to the 698
FIC Group investors (paragraph 303), and again
with respect to the 331 FIC Foreclosure
investors (paragraph 357).
¶ 54 Therefore, the respondents perpetrated a fraud
each time they traded securities to an investor.
As with Manna Trading and Samji, where a

70a
similar
argument
was
advanced,
the
respondents in this case contravened section
57(b) multiple times in their dealings with
hundreds of investors. There are, therefore,
hundreds of contraventions for which we could
order an administrative penalty.
¶ 55 Much of the parties’ submissions focused on the
quantum of the administrative penalty against
the individual respondents.
¶ 56 Some Commission panels had used a two or
three times multiplier on the amount of the
fraud as a guide in determining the appropriate
sanction. See, for example, IAC. There is no hard
and fast rule. It is trite to say that each case is
different and we must look at the circumstances
unique to the case.
¶ 57 The respondents here suggested that the
administrative penalty should be $500,000 for
each individual respondent. But if the panel
applies a multiplier, then it should be based only
on the amounts paid by the corporate
respondents to the individual respondent
personally or to his holding companies.
¶ 58 Even if we consider the amounts paid by all the
FIC Group companies to each individual
respondent since January 2008, the evidence
suggests they totaled less than $400,000, and a
three times multiplier would be $1.2 million. In
our view, that is far too low for specific and

71a
general deterrence in light of the magnitude of
the fraud.
¶ 59 Here, the misconduct is greater in magnitude
and seriousness than that in IAC, and not as
egregious as that in Michaels. In our view, an
administrative penalty of $21.7 million (in
addition to the $21.7 million disgorgement)
against each individual respondent as requested
by the executive director is not necessary for
meaningful specific and general deterrence. We
find $15 million to be proportionate to the harm
done, making it appropriate for the respondents
personally and sufficient to serve as a
meaningful and substantial general deterrence
to others. A $15 million administrative penalty
against each respondent is in line with the
penalties ordered in IAC and Michaels.
¶ 60 We do not draw any material distinction
between the responsibility that Lathigee and
Pasquill have for the misconduct. The
administrative penalty should be the same with
respect to both of them.
¶ 61 We do not find it serves the public interest or any
useful purpose to impose an administrative
penalty against the corporate respondents. They
were controlled by Lathigee and Pasquill and did
not act independently of the directions from the
two individuals. There is no need for specific
deterrence against them. In our opinion, general
deterrence
can
be
achieved
through

72a
administrative penalties against the individual
respondents.
IV.

Orders
¶ 62 Considering it to be in the public interest, and
pursuant to sections 161 and 162 of the Act, we
order that:
a) FIC Real Estate Projects Ltd., FIC
Foreclosure Fund Ltd., WBIC Canada
Ltd. (the “corporate respondents”)
i. under section 161(1)(b)(i), all persons
permanently cease trading in, and be
permanently prohibited from purchasing,
any securities or exchange contracts of
the corporate respondents;
ii. under section 161(1)(d)(v), the corporate
respondents are permanently prohibited
from engaging in investor relations
activities;
iii. under section 161(1)(c), on a permanent
basis, none of the exemptions set out in
the Act, the regulations or decisions (as
those terms are defined by the Act), will
apply to any of the corporate respondents;
and
iv. subject to paragraph 62(d) below, under
section
161(1)(g),
the
corporate
respondents pay to the Commission the
amounts obtained, directly or indirectly,
as a result of their contraventions of the
Act, as follows:

73a
•
•
•

FIC Projects - $9.8 million
FIC Foreclosure - $9.9 million
WBIC - $2 million;

b) Lathigee
i. Subject to the exception in paragraph 62(b)(ii)(b)
below, under section 161(1)(d)(i), Lathigee resign
any position he holds as a director or officer of an
issuer or registrant;
ii. Lathigee be permanently prohibited:
a) under section 161(1)(b)(ii), from trading
in or purchasing any securities or
exchange contracts, except that he may
trade and purchase them for his own
account through a registrant if he gives
the registrant a copy of this decision;
b) under
section
161(1)(d)(ii),
from
becoming or acting as a director or
officer of any issuer or registrant, except
that he may act as a director or officer of
one issuer whose securities are solely
owned by him or by him and his
immediately family members (being:
Lathigee’s spouse, parent, child, sibling,
mother or father-in-law, son or
daughter-in-law, or brother or sister-inlaw);
c) under section 161(1)(d)(iii), from
becoming or acting as a promoter;
d) under section 161(1)(d)(iv), from acting
in a management or consultative
capacity in connection with activities in
the securities market; and

74a

iii.

iv.

v.

e) under
section
161(1)(d)(v),
from
engaging in investor relations activities;
under section 161(1)(c), except for those
exemptions necessary to allow Lathigee to trade or
purchase securities and exchange contracts for his
own account, on a permanent basis, none of the
exemptions set out in the Act, the regulations or
decisions (as those terms are defined by the Act),
will apply to Lathigee;
subject to paragraph 62(d) below, under section
161(1)(g), Lathigee pay to the Commission $21.7
million, being the total amount obtained, directly
or indirectly, as a result of his contraventions of
the Act; and
under section 162, Lathigee pay an administrative
penalty of $15 million;

c. Pasquill
i. under section 161(1)(d)(i), Pasquill resign any
position he holds as a director or officer of an
issuer or registrant;
ii. Pasquill be permanently prohibited:
(a) under section 161(1)(b)(ii), from trading in or
purchasing any securities or exchange
contracts, except that he may trade and
purchase them for his own account through a
registrant if he gives the registrant a copy of
this decision;
(b) under section 161(1)(d)(ii), from becoming or
acting as a director or officer of any issuer or
registrant;

75a

iii.

iv.

v.

(c) under section 161(1)(d)(iii), from becoming or
acting as a promoter;
(d) under section 161(1)(d)(iv), from acting in a
management or consultative capacity in
connection with activities in the securities
market; and
(e) under section 161(1)(d)(v), from engaging in
investor relation activities;
under section 161(1)(c), except for those
exemptions necessary to allow Pasquill to trade or
purchase securities and exchange contracts for his
own account, on a permanent basis, none of the
exemptions set out in the Act, the regulations or
decisions (as those terms are defined by the Act),
will apply to Pasquill;
subject to paragraph 62(d) below, under section
161(1)(g), Pasquill pay to the Commission $21.7
million, being the total amount obtained, directly
or indirectly, as a result of his contraventions of
the Act; and
under section 162, Pasquill pay an administrative
penalty of $15 million.

d) Section 161(1)(g) payments
i. The respondents’ respective obligations to pay
under paragraphs 62(a)(iv), 62(b)(iv) and 62(c)(iv)
above shall not exceed the following:
(a) $9.8 million (distributions relating to FIC
Projects) – FIC Projects, Lathigee and Pasquill
only, on a joint and several basis;
(b) $9.9 million (distributions relating to FIC
Foreclosure) - FIC Foreclosure, Lathigee and
Pasquill only, on a joint and several basis; and

76a
(c) $2 million (distributions relating to WBIC) WBIC, Lathigee and Pasquill only, on a joint
and several basis.
¶ 63 March 16, 2015
¶ 64 For the Commission

Audrey T. Ho
Audrey T. Ho
Commission

Judith Downer
Judith Downer
Commission

77a
APPENDIX D

In the Supreme Court of the United States
______________________
No. 78833
______________________
MICHAEL PATRICK LATHIGEE
Appellant,
v.
BRITISH COLUMBIA SECURITIES
COMMISSION,
Respondent.
______________________
ORDER DENYING REHEARING
______________________
FILED: March 18, 2021
______________________
Before: HARDESTY, PARRAGUIRRE, STIGLICH,
CADISH, SILVER, PICKERING, HERNDON
______________________

78a
ORDER DENYING REHEARING
Rehearing denied. NRAP 40(c).
It is so ORDERED.
Hardesty , C.J.
Hardesty
Parraguirre
Parraguirre

, J.

Stiglich
Stiglich

, J.

Cadish
Cadish

, J.

Silver
Silver

, J.

Pickering
Pickering

, J.

Herndon
Herndon

, J.

